<html>
<title> - EXPLORING EFFORTS TO STRENGTHEN THE TEACHING PROFESSION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]


                  EXPLORING EFFORTS TO STRENGTHEN THE
                          TEACHING PROFESSION

=======================================================================

                             JOINT HEARING
				
				BEFORE THE

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                  ELEMENTARY, AND SECONDARY EDUCATION

                                AND THE

                  SUBCOMMITTEE ON HIGHER EDUCATION AND
                           WORKFORCE TRAINING

                                 OF THE

                         COMMITTEE ON EDUCATION
                           AND THE WORKFORCE

                     U.S. House of Representatives

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

           HEARING HELD IN WASHINGTON, DC, FEBRUARY 27, 2014

                               __________

                           Serial No. 113-47

                               __________

  Printed for the use of the Committee on Education and the Workforce
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  




                   Available via the World Wide Web:
                       www.gpo.gov/fdsys/browse/
           committee.action?chamber=house&committee=education
                                   or
            Committee address: http://edworkforce.house.gov
            
                               ____________
                               
                              
                        U.S. GOVERNMENT PUBLISHING OFFICE
86-746 PDF                     WASHINGTON : 2016                        
               
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="6304130c23001610170b060f134d000c0e4d">[email&#160;protected]</a>  

            
               
               
               
               COMMITTEE ON EDUCATION AND THE WORKFORCE

                    JOHN KLINE, Minnesota, Chairman

Thomas E. Petri, Wisconsin           George Miller, California,
Howard P. ``Buck'' McKeon,             Senior Democratic Member
    California                       Robert C. ``Bobby'' Scott, 
Joe Wilson, South Carolina               Virginia
Virginia Foxx, North Carolina        Ruben Hinojosa, Texas
Tom Price, Georgia                   Carolyn McCarthy, New York
Kenny Marchant, Texas                John F. Tierney, Massachusetts
Duncan Hunter, California            Rush Holt, New Jersey
David P. Roe, Tennessee              Susan A. Davis, California
Glenn Thompson, Pennsylvania         Raul M. Grijalva, Arizona
Tim Walberg, Michigan                Timothy H. Bishop, New York
Matt Salmon, Arizona                 David Loebsack, Iowa
Brett Guthrie, Kentucky              Joe Courtney, Connecticut
Scott DesJarlais, Tennessee          Marcia L. Fudge, Ohio
Todd Rokita, Indiana                 Jared Polis, Colorado
Larry Bucshon, Indiana               Gregorio Kilili Camacho Sablan,
Trey Gowdy, South Carolina             Northern Mariana Islands
Lou Barletta, Pennsylvania           Frederica S. Wilson, Florida
Joseph J. Heck, Nevada               Suzanne Bonamici, Oregon
Susan W. Brooks, Indiana             Mark Pocan, Wisconsin
Richard Hudson, North Carolina
Luke Messer, Indiana

                    Juliane Sullivan, Staff Director
                 Jody Calemine, Minority Staff Director
                                 
                                 ------                                

  SUBCOMMITTEE ON EARLY CHILDHOOD,ELEMENTARY, AND SECONDARY EDUCATION

                     TODD ROKITA, Indiana, Chairman

John Kline, Minnesota                Carolyn McCarthy, New York,
Thomas E. Petri, Wisconsin             Ranking Minority Member
Virginia Foxx, North Carolina        Robert C. ``Bobby'' Scott, 
Kenny Marchant, Texas                    Virginia
Duncan Hunter, California            Susan A. Davis, California
David P. Roe, Tennessee              Raul M. Grijalva, Arizona
Glenn Thompson, Pennsylvania         Marcia L. Fudge, Ohio
Susan W. Brooks, Indiana             Jared Polis, Colorado
                                     Gregorio Kilili Camacho Sablan,
                                       Northern Mariana Islands
                                     Mark Pocan, Wisconsin
        SUBCOMMITTEE ON HIGHER EDUCATION AND WORKFORCE TRAINING

               VIRGINIA FOXX, North Carolina, Chairwoman

Thomas E. Petri, Wisconsin           Ruben Hinojosa, Texas
Howard P. ``Buck'' McKeon,             Ranking Minority Member
    California                       John F. Tierney, Massachusetts
Glenn Thompson, Pennsylvania         Timothy H. Bishop, New York
Tim Walberg, Michigan                Suzanne Bonamici, Oregon
Matt Salmon, Arizona                 Carolyn McCarthy, New York
Brett Guthrie, Kentucky              Rush Holt, New Jersey
Lou Barletta, Pennsylvania           Susan A. Davis, California
Joseph J. Heck, Nevada               David Loebsack, Iowa
Susan W. Brooks, Indiana             Frederica S. Wilson, Florida
Richard Hudson, North Carolina
Luke Messer, Indiana
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on February 27, 2014................................     1

Statement of Members:
    Foxx, Hon. Virginia, Chairwoman, Subcommittee On Higher 
      Education and Workforce Training...........................     5
        Prepared statement of....................................     6
    Hinojosa, Hon. Ruben, Ranking Minority Member, Subcommittee 
      on Higher Education and Workforce Training.................     9
        Prepared statement of....................................    10
    Polis, Hon. Jared, a Representative in Congress from the 
      State of Colorado..........................................     7
        Prepared statement of....................................     9
    Rokita, Hon. Todd, Chairman, Subcommittee On Early Childhood, 
      Elementary, and Secondary Education........................     1
        Prepared statement of....................................     4

Statement of Witnesses:
    Gist, Deborah,A., Dr., Commissioner, Rhode Island Department 
      of Elementary and Secondary Education, Providence, RI......    11
        Prepared statement of....................................    14
    Hall, Christina, Co-Founder and Co-Director, Urban Teacher 
      Center, Baltimore, MD......................................    41
        Prepared statement of....................................    43
    Peske, Heather, G., Dr., Associate Commissioner for Educator 
      Quality, Massachusetts Department of Elementary and 
      Secondary Education, Malden, MA,...........................    31
        Prepared statement of....................................    34
    Singer-Gabella, Marcy, Dr., Professor of The Practice of 
      Education, Vanderbilt University, Nashville, TN............    20
        Prepared statement of....................................    23

Additional Submissions:
    Mr. Davis:
        American Psychological Association, prepared statement of    73
    Mr. Hinojosa:
        Association of Texas Professional Educators ATPE, 
          prepared statement of..................................    78
    Chairman Rokita questions submitted for the record to:
        Dr. Gist.................................................    84
        Ms. Hall.................................................    86
        Peske....................................................    88
        Dr. Singer-Gabella.......................................    90
    Response to questions submitted:
        Dr. Gist.................................................    92
        Ms. Hall.................................................    97
        Dr. Peske................................................   102
        Dr. Singer-Gabella.......................................   105

 
                  EXPLORING EFFORTS TO STRENGTHEN THE
                          TEACHING PROFESSION

                      Thursday, February 27, 2014

                     U.S. House of Representatives,

              Subcommittee on Early Childhood, Elementary,

                        and Secondary Education,

                               joint with

                  Subcommittee on Higher Education and

                           Workforce Training

               Committee on Education and the Workforce,

                            Washington, D.C.

                              ----------                              

    The subcommittees met, pursuant to call, at 10:05 a.m., in 
Room 2175, Rayburn House Office Building, Hon. Todd Rokita 
[chairman of the Early Childhood, Elementary, and Secondary 
Education subcommittee] presiding.
    Present from Early Childhood, Elementary, and Secondary 
Education subcommittee: Representatives Rokita, Kline, Foxx, 
Roe, Brooks, Scott, Davis, Polis, and Pocan.
    Present from Higher Education and Workforce Training 
subcommittee: Representatives Foxx, Walberg, Salmon, Guthrie, 
Brooks, Hudson, Messer, Bonamici, Davis, and Wilson.
    Staff present: Janelle Belland, Coalitions and Members 
Services Coordinator; James Bergeron, Director of Education and 
Human Services Policy; Lindsay Fryer, Professional Staff 
Member; Amy Raaf Jones, Deputy Director of Education and Human 
Services Policy; Nancy Locke, Chief Clerk; Daniel Murner, Press 
Assistant; Krisann Pearce, General Counsel; Jenny Prescott, 
Legislative Assistant; Dan Shorts, Legislative Assistant; Alex 
Sollberger, Communications Director; Alissa Strawcutter, Deputy 
Clerk; Brad Thomas, Senior Education Policy Advisor; Tylease 
Alli, Minority Clerk/Intern and Fellow Coordinator; Jeremy 
Ayers, Minority Education Policy Advisor; Kelly Broughan, 
Minority Education Policy Associate; Jody Calemine, Minority 
Staff Director; Jamie Fasteau, Minority Director of Education 
Policy; Scott Groginsky, Minority Education Policy Advisor; 
Julia Krahe, Minority Communications Director; Brian Levin, 
Minority Deputy Press Secretary/New Media Coordinator; Megan 
O'Reilly, Minority General Counsel; and Michael Zola, Minority 
Deputy Staff Director.
    Chairman Rokita. Finding a quorum present, the subcommittee 
will come to order. Good morning, and welcome to today's joint 
subcommittee hearing.
    I would like to thank our witnesses for being here to help 
us examine ways we can work together to encourage better 
teachers in our nation's schools.
    I would like to thank my colleague from North Carolina, Dr. 
Foxx, the chairwoman of the Subcommittee on Higher Education 
and Workforce Training, for agreeing to hold this joint hearing 
on ``Exploring Efforts to Strengthen the Teaching Profession.''
    Today we will have opening statements from the chairmen and 
the ranking members of each subcommittee.
    And with that, I recognize myself for my opening statement.
    Ladies and gentlemen, research has confirmed that teachers 
have an enormous influence on student learning and performance. 
Outside of their parents, teachers are often the single 
greatest influence on students' ability to build the best 
possible life for themselves.
    Whether as a parent or in our own school days, many of us 
have had the fortune to witness firsthand the impact of a truly 
exceptional educator and what effect the educator can have on a 
child's life. Effective teachers can motivate students to 
explore the unknown, think critically, and challenge 
expectations. Because we fight not only for our children, but 
for all people so that they can build better lives for 
themselves and their families, we must also find ways to see 
that teachers achieve greater success.
    Most educators earn a degree from an education program at a 
traditional 4-year college or university. After obtaining the 
degree the prospective teachers must then pass the state 
licensure or certification exams to become eligible to teach in 
that state. As the chairwoman of the Subcommittee on Higher 
Education and Workforce Training will explain in her remarks, 
far too many teacher preparation programs, also known as 
``teacher colleges,'' are underperforming and failing to ensure 
new educators are ready for success in the classroom.
    States play a major role in improving teacher quality and 
preparation, as they have authority over the licensure and 
certification requirements. Recognizing teacher preparation 
programs aren't making the grade, some states have proactively 
raised teacher preparation program standards and taken steps to 
tie teacher effectiveness to license renewal.
    In Rhode Island, for example, the state board of education 
recently strengthened admission criteria and implemented 
policies to hold novice teachers accountable for improving 
student achievement. Additionally, the state has forged 
valuable partnerships with local school districts to better 
align pre-service training with the needs of today's students. 
We will learn more about the efforts underway at the state 
level from our witness, Dr. Deborah Gist--is that right? Okay, 
thank you--commissioner of the Rhode Island Department of 
Elementary and Secondary Education.
    We also have with us today Ms. Christina Hall from the 
Urban Teacher Center, an alternative certification program 
based in Baltimore. These programs allow individuals who 
already have a postsecondary degree and work experience to earn 
certification to teach without completing a traditional teacher 
education program.
    Alternative certification programs have become increasingly 
popular in recent years, particularly with the release of 
studies confirming alternatively certified educators are just 
as effective as traditionally certified teachers. Additionally, 
the alternative routes help districts address educator 
shortages quickly and more efficiently, helping to ensure more 
students have access to good teachers, and isn't that the 
point?
    The House Education and Workforce Committee has also been 
working to encourage more effective educators. Last year we 
successfully advanced the Student Success Act, legislation to 
revamp federal K-12 education law that includes a number of key 
provisions affecting teachers.
    First, the Student Success Act eliminates the antiquated, 
quote--``highly qualified teacher,'' unquote, or HQT, provision 
that values an educator's degrees or credentials over his or 
her ability to motivate students in the classroom. States, 
school districts, and teachers have criticized this policy for 
years and it is past time we got rid of it.
    Second, the legislation includes language to support state 
or school district efforts to develop unique teacher evaluation 
systems, helping ensure educators can be fairly judged on their 
ability to raise student achievement.
    Finally, the Student Success Act also consolidates most of 
the teacher quality programs in current K-12 education law into 
a Teacher and School Leader Flexible Grant. The new grant 
program also absorbs some of the ideas behind the Teacher 
Quality Partnership Grant program under the Higher Education 
Act.
    The Teacher and School Leader Flexible Grant supports 
creative approaches to recruit and retain effective teachers 
and grants districts the authority to partner with higher 
education institutions and other organizations to improve 
teacher and school leader prep programs. Additionally, states, 
alone or in partnership with state agencies of higher 
education, can use these funds under the grant program to 
reform teacher certification, recertification, and licensing; 
improve state teacher preparation programs; or improve 
alternate certification programs.
    But we must not rely exclusively on our teachers, for many 
are asked to do far too much. That is why the Student Success 
Act empowers local communities and states with the authority to 
find their own solutions.
    For example, in Indiana's 4th District Gary Henriott, of 
the Henriott Group, and Steve Horne, a volunteer with the 
United Way in Lafayette, who are both in attendance today as 
part of the Greater Lafayette Chamber of Commerce's annual fly-
in, have led an enormously successful school reading program, 
called Read to Succeed, that brings business and community 
leaders into schools where they not only read and teach 
students but provide valuable mentorship for our young people.
    One-size-fits-all programs will inevitably limit these sort 
of dynamic educational efforts that at their core are 
supporting children, teachers, and our communities at large.
    Together the policies in the Student Success Act will 
encourage states to implement strategies that will help get 
better teachers, strengthen families, and enrich communities. 
Unfortunately, this critical legislation to revamp the nation's 
K-12 system has been awaiting Senate consideration for several 
months now. It sits on Senator Reid's desk.
    Once again, I urge the Senate to bring education reform 
legislation up for a vote as soon as possible. Our children 
deserve a better education law and they deserve the greatest 
opportunity to build better lives for themselves.
    With that, I will now yield to my distinguished colleague, 
Higher Education and Workforce Training Subcommittee Chairman 
Virginia Foxx, for her opening remarks.
    [The statement of Chairman Rokita follows:]
    Research has confirmed teachers have an enormous influence on 
student learning and performance. Outside of their parents, teachers 
are often the single greatest influence on students' ability to build 
the best possible life for themselves. Whether as a parent or in our 
own school days, many of us have had the fortune to witness firsthand 
the impact a truly exceptional educator can have on a child's life. 
Effective teachers can motivate students to explore the unknown, think 
critically, and challenge expectations. Because we fight, not only for 
our children, but for all people, so they can build better lives for 
themselves and their families, we must also find ways to see teachers 
achieve greater success.
    Most educators earn a degree from an education program at a 
traditional four-year college or university. After obtaining the 
degree, the prospective teachers must then pass the state licensure or 
certification exams to become eligible to teach in that state. As the 
Chairwoman of the Subcommittee on Higher Education and Workforce 
Training will explain in her remarks, far too many teacher preparation 
programs - also known as `teacher colleges'- are underperforming, 
failing to ensure new educators are ready for success in the classroom.
    States play a major role in improving teacher quality and 
preparation, as they have authority over the licensure and 
certification requirements. Recognizing teacher preparation programs 
aren't making the grade, some states have proactively raised teacher 
preparation program standards, and taken steps to tie teacher 
effectiveness to license renewal.
    In Rhode Island, for example, the state board of education recently 
strengthened admission criteria and implemented policies to hold novice 
teachers accountable for improving student achievement. Additionally 
the state has forged valuable partnerships with local school districts 
to better align pre-service training with the needs of today's 
students. We will learn more about the efforts underway at the state 
level from our witness, Dr. Deborah Gist, Commissioner of the Rhode 
Island Department of Elementary and Secondary Education.
    We also have with us today Ms. Christina Hall from the Urban 
Teacher Center, an alternative certification program based in 
Baltimore. These programs allow individuals who already have a 
postsecondary degree and work experience to earn certification to teach 
without completing a traditional teacher education program.
    Alternative certification programs have become increasingly popular 
in recent years, particularly with the release of studies confirming 
alternatively certified educators are just as effective as 
traditionally certified teachers. Additionally, the alternative routes 
help districts address educator shortages quickly and more efficiently, 
helping to ensure more students have access to good teachers.
    The House Education and the Workforce Committee has also been 
working to encourage more effective educators. Last year, we 
successfully advanced the Student Success Act, legislation to revamp 
federal K-12 education law that includes a number of key provisions 
affecting teachers.
    First, the Student Success Act eliminates the antiquated ``Highly 
Qualified Teacher,'' or HQT, provision that values an educator's 
degrees or credentials over his or her ability to motivate students in 
the classroom. States, school districts, and teachers have criticized 
the policy for years, and it is past time we got rid of it.
    Second, the legislation includes language to support state or 
school district efforts to develop unique teacher evaluation systems, 
helping ensure educators can be fairly judged on their ability to raise 
student achievement.
    Finally, the Student Success Act also consolidates most of the 
teacher quality programs in current K-12 education law into a Teacher 
and School Leader Flexible Grant. The new grant program also absorbed 
some of the ideas behind the Teacher Quality Partnership grant program 
under the Higher Education Act.
    The Teacher and School Leader Flexible Grant supports creative 
approaches to recruit and retain effective teachers, and grants 
districts the authority to partner with higher education institutions 
and other organizations to improve teacher and school leader 
preparation programs. Additionally, states - alone or in partnership 
with state agencies of higher education - can use funds under the grant 
program to reform teacher certification, recertification and licensing; 
improve state teacher preparation programs; or improve alternative 
certification programs.
    But we must not rely exclusively on our teachers, for many are 
asked to do far too much. That is why the Student Success Act empowers 
local communities and states with the authority to find their own 
solutions. For example in Indiana's 4th District, Gary Henriott, of the 
Henriott Group, and Steve Horne, a volunteer with the United Way in 
Lafayette, Indiana, who are both in attendance today as part of the 
Greater Lafayette Chamber of Commerce's annual fly-in, have led an 
enormously successful school reading program, called Read to Succeed, 
that brings business and community leaders in to schools where they not 
only read and teach students but provide valuable mentorship for our 
young people.
    One size fits all programs will inevitably limit these sort of 
dynamic educational efforts that, at their core, are supporting 
children, teachers, and our communities at large.
    Together the policies in the Student Success Act will encourage 
states to implement strategies that will help get better teachers, 
strengthen families, and enrich communities. Unfortunately, this 
critical legislation to revamp the nation's K-12 system has been 
awaiting Senate consideration for several months now. Once again, I 
urge the Senate to bring education reform legislation up for a vote as 
soon as possible. Our children deserve a better education law, and they 
deserve the greatest opportunity possible to build better lives for 
themselves.
                                 ______
                                 
    Chairwoman Foxx. Thank you, Chairman Rokita.
    Good morning and welcome.
    I thank our panel of witnesses for joining us for today's 
joint subcommittee hearing on strengthening the teaching 
profession. We look forward to your testimony.
    So often teachers are unfairly blamed for the problems in 
our nation's schools. I had many excellent teachers throughout 
my education and have known many exceptional teachers since 
then. In fact, my own experience highlights the difference a 
good teacher and educational opportunity can make in the life 
of a student.
    While we will take an honest look at teacher preparation 
programs today, I want to commend the hardworking individuals 
on the front lines of education every day. I believe I speak 
for most if not all of my colleagues here today when I say 
there is an urgent need to address the sad state of teacher 
preparation programs in this country.
    According to the National Council of Teacher Quality's 2013 
Teacher Prep Review, teacher preparation programs at American 
colleges and universities, quote--``have become an industry of 
mediocrity, churning out first-year teachers with classroom 
management skills and content knowledge inadequate to thrive in 
classrooms with ever-increasing ethnic and socioeconomic 
student diversity.'' The scathing report details myriad 
problems within teacher preparation systems, including overly 
lenient admissions policies, outdated coursework, and a severe 
lack of hands-on classroom experience.
    In a piece for the Wall Street Journal, education 
consultant Harold Kwalwasser and Napa County Superintendent, 
Dr. Barbara Nemko echoed the National Council of Teacher 
Quality's findings, stating, quote--``Too often these future 
educators learn to 'teach' math but they don't necessarily 
learn how to do the math itself,'' end quote.
    Without strong teacher preparation programs we cannot make 
real progress in our efforts to improve K-12 schools, raise 
graduation rates, and help more children get on the path to a 
successful future. It is time to shine a bright light on the 
problems with teacher preparation as we examine ways school 
districts, postsecondary institutions, organizations, and 
states are working together to challenge the status quo.
    Chairman Rokita has already discussed ways states and 
school districts are working to bring more effective teachers 
into the classroom and reviewed our efforts in the Student 
Success Act to support state and local efforts to recruit, 
hire, and retain better teachers.
    On the postsecondary level, four institutions have earned 
national recognition for their efforts to strengthen the 
teaching profession. Rigorous coursework, high academic 
standards, and extensive hands-on experience at The Ohio State 
University, Lipscomb University, Furman University, and 
Vanderbilt University have earned these institutions' teacher 
preparation programs high marks from the National Council on 
Teacher Quality.
    We are fortunate to have Dr. Marcy Singer-Gabella from 
Vanderbilt's Peabody College with us today to describe the 
institution's efforts to ensure students graduate ready to move 
to the front of the classroom.
    As the committee continues to prepare for the 
reauthorization of the Higher Education Act, reducing 
regulatory burdens on higher education institutions remains a 
top priority. Like most postsecondary programs, teacher 
colleges are overwhelmed with reporting requirements, few of 
which have any real bearing on the quality of teachers produced 
by the programs.
    While we agree on the need to strengthen data collection 
under the law, we must make sure the right kind of data is 
collected to provide helpful information. I look forward to 
continuing conversations with my colleagues on ways to help 
states and schools report useful, timely information for 
policymakers, states, districts, institutions, prospective 
teachers, and the public. We also must ensure federally 
mandated reporting requirements do not create additional 
burdens or hinder the good work already underway.
    We must also continue monitoring actions by the Obama 
administration that would increase federal overreach and limit 
innovation in postsecondary education, especially with regard 
to the teaching profession. I remain concerned about the 
direction of the administration's spring 2012 negotiated 
rulemaking session, which did not result in consensus among 
participants.
    Though the regulations have yet to be released, I am wary 
of any new federal dictates on teacher preparation programs, 
program quality, and teacher effectiveness. These 
responsibilities are best left to states and institutions, not 
federal bureaucrats.
    Once again, I would like to thank our witnesses for joining 
us today. We look forward to learning your views on 
strengthening the teaching profession.
    And with that, I yield back.
    [The statement of Chairwoman Foxx follows:]
    So often teachers are unfairly blamed for the problems in our 
nation's school. I had excellent teachers throughout my education and 
know many exceptional teachers. In fact, my own experience highlights 
the difference a good teacher and educational opportunity can make in 
the life of a student. While we will take an honest look at teacher 
preparation programs today, I want to commend the hardworking 
individuals on the frontlines of education every day.
    I believe I speak for most, if not all, of my colleagues here today 
when I say there is an urgent need to address the sad state of teacher 
preparation programs in this country. According to the National Council 
of Teacher Quality's 2013 Teacher Prep Review, teacher preparation 
programs at American colleges and universities ``have become an 
industry of mediocrity, churning out first-year teachers with classroom 
management skills and content knowledge inadequate to thrive in 
classrooms with ever-increasing ethnic and socioeconomic student 
diversity.''
    The scathing report details myriad problems within teacher 
preparation systems, including overly-lenient admissions policies, 
outdated coursework, and a severe lack of hands-on classroom 
experience. In a piece for the Wall Street Journal, education 
consultant Harold Kwalwasser and Napa County Superintendent Dr. Barbara 
Nemko echoed the National Council of Teacher Quality's findings, 
stating, ``Too often, these future educators learn to `teach' math, but 
they don't necessarily learn how to do the math itself.''
    Without strong teacher preparation programs, we cannot make real 
progress in our efforts to improve K-12 schools, raise graduation 
rates, and help more children get on the path to a successful future. 
It is time to shine a bright light on the problems with teacher 
preparation as we examine ways school districts, postsecondary 
institutions, organizations, and states are working together to 
challenge the status quo.
    Chairman Rokita has already discussed ways states and school 
districts are working to bring more effective teachers into the 
classroom, and reviewed our efforts in the Student Success Act to 
support state and local efforts to recruit, hire, and retain better 
educators.
    On the postsecondary level, four institutions have earned national 
recognition for their efforts to strengthen the teaching profession. 
Rigorous coursework, high academic standards, and extensive hands-on 
experience at The Ohio State University, Lipscomb University, Furman 
University, and Vanderbilt University have earned these institutions' 
teacher preparation programs high marks from the National Council on 
Teacher Quality. We are fortunate to have Dr. Marcy Singler-Garbella 
from Vanderbilt's Peabody College with us today to describe the 
institution's efforts to ensure students graduate ready to move to the 
front of the classroom.
    As the committee continues to prepare for the reauthorization of 
the Higher Education Act, reducing regulatory burdens on higher 
education institutions remains a top priority. Like most postsecondary 
programs, teacher colleges are overwhelmed with reporting requirements, 
few of which have any real bearing on the quality of teachers produced 
by the programs.
    While we agree on the need to strengthen data collection under the 
law, we must make sure the right kind of data is collected to provide 
helpful information. I look forward to continuing conversations with my 
colleagues on ways to help states and schools report useful, timely 
information for policymakers, states, districts, institutions, 
prospective teachers, and the public. We also must ensure federally 
mandated reporting requirements do not create additional burdens or 
hinder the good work already underway.
    We must also continue monitoring actions by the Obama 
administration that would increase federal overreach and limit 
innovation in postsecondary education, especially with regard to the 
teaching profession. I remain concerned about the direction of the 
administration's spring 2012 negotiated rulemaking session, which did 
not result in consensus among participants. Though the regulations have 
yet to be released, I am wary of any new federal dictates on teacher 
preparation programs, program quality, and teacher effectiveness. These 
responsibilities are best left to states and institutions, not federal 
bureaucrats.
                                 ______
                                 
    Chairman Rokita. Thank you, Dr. Foxx.
    I now yield to my distinguished colleague from Colorado, 
Mr. Jared Polis, for his opening remarks.
    Mr. Polis. I thank the chair. I am thrilled that the 
committee has called this important hearing.
    Not only does our own personal experience highlight the 
importance of our own teachers that we had and that I had 
growing up, and common sense indicates that the most important 
factor is a teacher in the classroom, but the data bears out 
that there is no more important school-level factor that 
influences a child's education than the quality of the teacher 
that they have.
    On day one our teachers need to enter the classroom with 
the skills, the knowledge they need to succeed. We need to make 
sure we prepare teachers for success, that they are evaluated 
fairly, that they are compensated well, and that they have 
working conditions that allow them to thrive in helping their 
students achieve.
    Unfortunately, our system for preparing teachers today is 
hit or miss and systemically is falling short of ensuring that 
we have enough quality teachers to enter particularly the 
classrooms that serve our most at-risk kids. According to a 
recent study of schools of education, almost two-thirds of 
recent school of education alumni reported that schools of 
education at 4-year colleges did not adequately prepare them to 
enter the classroom on day one.
    Students in high-poverty schools are twice as likely to be 
assigned new teachers. This means our most vulnerable students 
often bear the brunt of a system that fails to consistently 
prepare high-quality teachers to enter the classroom.
    But there is good news, as well. We can and we are doing 
better.
    Across the country innovative teacher preparation programs 
like the Urban Teaching Center, the Relay Graduate School of 
Education, and the Match Teacher Residency program are breaking 
the traditional classroom model, partnering with school 
districts, prioritizing practice and coaching instead of 
theory, and demonstrating that the first-year teacher does not 
need to learn through failure.
    That is why I have introduced the bipartisan GREAT Act, 
along with Congressman Petri, which would encourage the growth 
of teachers and principal academies, which are held accountable 
for high standards in exchange for being free from burdensome 
input-based regulations that are unrelated to student 
achievement. It is our hope that these academies open up the 
profession of teaching to people who otherwise might not choose 
to enter it, as well as ensure that graduates of the academies 
are ready to be excellent teachers on day one.
    These programs use video to emulate best practices, allow 
novice teachers to learn from mentors and professors who 
themselves are experts, and recommend students for licensure 
based not on seat time but on proven results. These innovations 
are already leading to improved student outcomes as well as 
increased teacher retention and morale. Unfortunately, many of 
these programs are unable to offer federal financial aid 
because they are not able to make it through the current 
burdensome, costly accreditation process that focuses more on 
inputs than outcomes and hasn't changed in recent history.
    On the state level, the Council of Chief State School 
Officers has partnered with seven states to adopt bold reform 
measures in teacher preparation and licensure. These and other 
states are taking a comprehensive approach to improve their 
human capital pipelines for teachers by raising the bar on 
teacher preparation and performance across all programs.
    It is important for states and for the federal government 
to support innovation and reform in the field of teacher 
preparation. We need to ensure that transparency exists and 
remove the Higher Education Act's onerous input-based reporting 
requirements, but focus on outcomes to ensure that success is 
rewarded.
    We have a crucial role to play in ensuring that meaningful 
data exists, is collected, is analyzed, that teacher 
preparation programs are held accountable, and to promote best 
practices in the field.
    Doing so in preparation programs requires restructuring of 
data systems to ensure that teacher performance can be tracked 
back to programs--17 states already have the ability to do 
that. We also need to ensure that high-quality induction and 
mentoring experiences are available when teachers enter the 
classroom.
    I look forward to hearing from our esteemed witnesses about 
their experiences and perspectives on improving the teaching 
profession and investing in our future--America's children.
    [The statement of Mr. Polis follows:]
    I am very glad that the Committee has called this important 
hearing. There is no more important school-level factor influencing our 
children's education than the quality of our teaching force.
    On day one, our teachers need to enter the classroom with the 
skills and knowledge they need to succeed. Unfortunately, our system 
for preparing teachers is falling short.
    According to a leading study of schools of education, almost two-
thirds of education school alumni reported that schools of education at 
four-year colleges did not adequately prepare them for the classroom.
    Moreover, students in high-poverty and high-minority schools are 
twice as likely to be assigned to new teachers. This means our most 
vulnerable students are bearing the brunt of a system that fails to 
consistently prepare high-quality educators.
    We can do better. Across the country, innovative teacher 
preparation programs, like the Urban Teacher Center, the Relay Graduate 
School of Education, and MATCH Teacher Residency, are breaking the 
traditional classroom model, partnering with K-12 school districts, 
prioritizing practice and coaching instead of theory, and demonstrating 
that the first year teacher does not need to learn through failure.
    These programs use video to emulate best practices, allow novice 
teachers to learn from professors who are themselves expert educators, 
and recommend students for licensure based on mastery, not ``seat 
time.'' These innovations have lead to improved student outcomes and 
increased teacher retention.
    Unfortunately, many of these programs are unable to offer federal 
financial aid because they are not able to make it through a 
burdensome, costly accreditation process that focuses more on inputs 
than outcomes like teacher performance, job placement, and retention.
    On the state level, the Council of Chief State School Officers has 
partnered with seven states to adopt bold reform measures in teacher 
preparation and licensure. These and other states are taking a 
comprehensive approach to improve their human capital pipelines by 
raising the bar on teacher preparation program performance.
    It is important for states and for the federal government to 
support innovation and reform in the field of teacher preparation. We 
need to remove the Higher Education Act's onerous input-based reporting 
requirements, and focus on outcomes.
    We have a crucial role to play in collecting meaningful data on 
program results, holding teacher preparation programs accountable, and 
promoting best practices in the field.
    Doing so requires increasing the selectivity of who enrolls in 
preparation programs, restructuring data systems to ensure that teacher 
performance can track back to programs, which 17 states currently have 
the ability to do, and ensuring that teachers have high-quality 
induction and mentoring experiences when they enter the classroom.
    I look forward to hearing from our esteemed witnesses about their 
experiences and perspectives on improving the teaching profession and 
investing in America's future - our children.
                                 ______
                                 
    Mr. Polis. I would also like to ask unanimous consent to 
submit Chairman Hinojosa's statement to the record?
    [The statement of Mr. Hinojosa follows:]
    Thank you, Representative Polis.
    Today's hearing will focus on efforts to strengthen the teaching 
profession. As Ranking Member of the Subcommittee on Higher Education 
and Workforce Training, I believe that all students should have access 
to outstanding teachers. Research clearly shows that the most important 
factor in the education of a child is teacher quality, followed by 
school leadership.
    Along the same lines, it is also critical to recruit and train 
exemplary teachers who reflect the rich cultural and linguistic 
diversity of the student population and local community that they 
serve.
    Improving the quality of the teaching profession is key to student 
success, but we know that it begins with teacher preparation programs, 
before teachers actually enter the classroom.
    In my view, the federal government, states, and institutions can do 
more to improve the quality of teacher preparation programs and ensure 
that they are adequately funded.
    To begin, federal policy on teacher preparation is limited and not 
well-funded. Title II of the Higher Education Act (HEA) provides a mere 
$40 million per year and requires states to report on basic aspects of 
their teacher preparation programs, but places few requirements on 
them. Federal policy can help states reform and improve their teacher 
preparation programs. HEA requirements can shift the focus on outcomes 
and help teacher preparation program improve.
    For example, H.R. 2172, the ``Educator Preparation Reform Act,'' a 
bill sponsored by my colleague, Representative Mike Honda, would help 
to improve the quality of teaching in high need schools by reforming 
and strengthening accountability of educator preparation programs as 
well as support partnerships to meet the needs of educators and 
educational leaders.
    As a proud cosponsor of the bill, I would like to see improvements 
to the Teacher Quality
    Partnership Grants Program in Title II of the Higher Education Act.
    Finally, I want to underscore what is quite obvious in to us in my 
home state of Texas: American public schools have and will continue to 
become increasingly diverse. Students of color in Texas already 
comprise the majority of the state's public school enrollments. As a 
result, teacher diversity must be a central part of this discussion.
    In 2013, the Equity and Excellence Commission's report, entitled 
``For Each and Every Child'' provided a number of recommendations to 
Secretary of Education Arne Duncan to address the teacher quality 
pipeline.
    With regard to teacher diversity, I am pleased that the commission 
highlighted the importance of this issue.
    In particular, the Commission called on teacher training and 
professional development programs to be tailored to meet the needs of 
today's contemporary classrooms, where students of color, low-income 
students and students learning English as a second language are 
increasingly the majority.
    The commission also recommended that states recruit and retain 
excellent multilingual teachers and teachers of color.
    In closing, I look forward to hearing from our distinguished 
panelists on how our nation can strengthen the teaching profession and 
improve student success for all.
    Thank you!
                                 ______
                                 
    Chairman Rokita. Without objection. And thank you, Mr. 
Polis.
    I now would like to say for the record, pursuant to 
committee rule 7(c) all subcommittee members will be permitted 
to submit written statements to be included in the permanent 
hearing record. And without objection, the hearing record will 
remain open for 14 days to allow statements, questions for the 
record, and other extraneous material referenced during the 
hearing to be submitted into the official record.
    It is now my pleasure to introduce our distinguished panel 
of witnesses.
    Again, we have joining us this morning Dr. Deborah Gist. 
She is the commissioner of the Rhode Island Department of 
Elementary and Secondary Education.
    Before coming to Rhode Island she served as the first state 
superintendent of education for the District of Columbia. She 
also serves as a founding member of Chiefs for Change.
    We also have with us this morning Dr. Marcy Singer-Gabella. 
She is a professor and associate chair for teacher education in 
the Department of Teaching and Learning at Vanderbilt 
University. Before coming to Vanderbilt she taught high school 
social studies in New York and worked with the Stanford 
School's Collaborative Professional Development Center in the 
California Bay Area.
    Welcome.
    Dr. Heather Peske is the associate commissioner for 
educator quality at the Massachusetts Department of Elementary 
and Secondary Education. Prior to that role she was vice 
president of programs at Teach Plus. She has also served as the 
director of teacher quality at the Education Trust and as an 
elementary school teacher and Teach for America Corps member in 
Baton Rouge, Louisiana.
    Welcome.
    Ms. Christina Hall is the cofounder and co-director of the 
Urban Teacher Center in Baltimore, Maryland. Prior to co-
launching Urban Teacher Center, Ms. Hall was chief of staff for 
the chief academic officer in Baltimore City Public Schools. 
She has also served as an attorney advocating for disadvantaged 
youth at the Department of Social Services for the Commonwealth 
of Massachusetts and as a public high school teacher.
    Welcome to you, Ms. Hall.
    Before I recognize each of you to provide your testimony 
let me briefly explain our lighting system.
    You will each have 5 minutes to present your testimony. 
When you begin the light in front of you will turn green; when 
1 minute is left the light will turn yellow; when your time has 
expired the light will turn red. At that point I ask you to 
wrap up your remarks as best as you are able.
    After everyone has testified, members will each have 5 
minutes to ask questions of the panel--fairly self-explanatory. 
It is mostly a reminder for us up here about the lighting 
system.
    I would now like to recognize Dr. Gist for 5 minutes.
    Dr. Gist?

 STATEMENT OF DR. DEBORAH A. GIST, COMMISSIONER, RHODE ISLAND 
 DEPARTMENT OF ELEMENTARY AND SECONDARY EDUCATION, PROVIDENCE, 
                               RI

    Ms. Gist. Good morning, Chairman Rokita, and good morning, 
Chairwoman Foxx and Representative Polis and all of the members 
of the committee. It is really an honor to be here this morning 
to talk with you about a topic that is truly important to all 
of us as Americans, the issue of educator quality and teacher 
preparation.
    My name is Deborah Gist. I am the Commissioner of Education 
in Rhode Island.
    I also serve on the board of directors of the Council for 
the Accreditation of Teacher--Educator Preparation, which is 
known as CAEP. I am also a member of the technical panel for 
the Teacher Prep Review for the National Council of Teacher 
Quality, and as a member of the board of directors of the 
Council of Chief State School Officers, which has provided 
tremendous support to those of us in our states as we do all of 
our work, but including our work with teacher preparation.
    Because of my work in all of these different roles I have 
an appreciation for how necessary it is that we make dramatic 
improvements to our current system of teacher preparation. To 
teach successfully our graduates need--they need to know their 
subject, they need to know how to reach a diverse population of 
students, and they need to know how to apply their learning and 
their skill in the classroom.
    So recognizing this need, in Rhode Island we worked closely 
over the past year, with our partners in higher education in 
our state, to significantly revise our approval standards for 
our educator preparation programs, and our board adopted these 
standards in November. I have attached them and you should have 
a copy of those standards.
    These new standards that we put in place in our state were 
modeled after the standards developed by CAEP, the Council for 
the Accreditation of Educator Preparation. And there was a 
large commission that worked on that; I am sure you are 
familiar with that work. So we modeled our standards after 
CAEP.
    So I want to tell you a little bit about those standards. I 
will just talk about four different--or five different parts of 
those standards.
    The first is that we are focused on the importance of 
classroom practice, with more emphasis on partnerships between 
our preparation programs and the schools--the K-12 schools 
within our state. We want to make sure that our aspiring 
teachers have experiences in our classrooms with students. We 
want our teacher preparation programs to coordinate with our 
schools and make sure that those field placements are high 
quality and make sure that aspiring teachers are performing and 
getting strong feedback when they are in those programs.
    Second, we want our teaching force to reflect the diversity 
of students in Rhode Island. Therefore, we expect our teacher 
preparation programs to recruit, to make sure that they have 
diverse candidates that they are bringing into their programs 
and supporting all candidates as they strive to become 
teachers.
    Third, we expect our teacher preparation programs to have 
criteria and assessments to determine whether or not their 
candidates are truly ready to be candidates for certification. 
That all starts with how they attract and recruit and the 
selection criteria they use when aspiring teachers are coming 
into their programs. And then they also need to evaluate their 
performance once they are actually in their practicums.
    And fourth, we expect our programs to continue to gather 
information about the performance of their graduates through at 
least the first year of their teaching by gathering feedback 
from the graduates and from their employers.
    And finally, we are going to be sharing data about and 
report information widely, and we are going to do it publicly 
through a series of report cards on each preparation program.
    I strongly encourage the committee to take note of the work 
that state leaders have done, that educators in the field have 
done, and national organizations such as CAEP have done. There 
is a lot of movement happening in this area, and we are really 
engaged in making changes--dramatic changes in the system, 
including through educator preparation program accreditation, 
which is what CAEP is responsible for.
    So I am sure you are aware that all of our states currently 
provide a report to the U.S. Department of Education on our 
educator preparation programs, and going forward it would be 
helpful if this data collection were limited to data points 
that provide evidence of quality, and that our states and our 
educator preparation programs find the data that they are 
gathering and reporting to be actually valuable, such as data 
that is more focused on outcomes.
    It would also be valuable if we could gather and analyze 
and report this data not just aggregated across the preparation 
institutions, but designated by the programs that they have, so 
early childhood, elementary, secondary, for example.
    I think it is important that states retain the authority to 
set their own benchmarks for measuring the efficacy of their 
preparation programs, but the data and reports on the programs 
will be most useful if we are all publicly reporting those data 
and that we are sharing with those we are responsible to what 
the benchmarks are that we are setting.
    We may never know how important the work that we are doing 
is because it is just really launching the careers of our 
aspiring educators, but we know that we have to do things 
differently, and I assure you that things are happening very 
differently in our programs across the country. So I am happy 
to answer any questions and share in a dialogue with the 
committee and with my colleagues on the panel.
    [The statement of Dr. Gist follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
          
    Chairman Rokita. Thank you very much.
    I would now like to recognize Dr. Singer-Gabella for 5 
minutes.
    Doctor?

    STATEMENT OF DR. MARCY SINGER-GABELLA, PROFESSOR OF THE 
  PRACTICE OF EDUCATION, VANDERBILT UNIVERSITY, NASHVILLE, TN

    Ms. Singer-Gabella. Chairman Rokita, Chairwoman Foxx, 
Congressman Polis, Congressman Hinojosa, members of the 
subcommittees, thank you for inviting me to talk with you today 
about Vanderbilt's teacher education programs. I serve as 
associate chair for teacher education and work closely with 
faculty across two departments responsible for preparing early 
childhood, elementary, secondary, and special education 
teachers.
    In my comments I want to first set the context for our work 
and then offer some examples of how we are preparing teachers 
to succeed and persist in the profession.
    My colleagues and I view teacher preparation as a larger 
system of schooling intended to prepare youth to flourish in 
work and civic life. In the U.S. this larger system currently 
faces profound challenges. Let me point to three that shape and 
motivate our work as teacher educators.
    First, a bimodal distribution of school performance, with 
schools at one end that are doing quite well, and a significant 
number of schools, typically at the lower end of the 
socioeconomic spectrum, that are not doing well at all.
    Second, a teacher workforce for which the modal number of 
years of experience has shifted from 15 to 1 in just over two 
decades. That means that teachers have taught for--that more 
teachers have taught for only 1 year than have taught 5, 10, or 
15. Key causes of this shift include the absence of a real 
career path, low levels of respect and compensation, and the 
sapping of motivation caused by an imbalance of interest in 
test scores.
    And third, system churn, caused by the very real difficulty 
of teaching in struggling schools, and increasing reliance on 
temporary teachers--young, bright, very talented individuals 
who are entering teaching for the short term as a stepping 
stone to another career.
    At Vanderbilt our goal is to prepare teachers who have the 
knowledge, skills, and stamina to succeed and to stay in the 
profession. We believe that our chances of success are 
intertwined with the fortunes of the schools we serve.
    To address the challenges I have noted, schools must become 
sites of ongoing learning, growth, and opportunity not only for 
students but also for the adults who teach in them. Central to 
our strategy, therefore, is the design of partnerships with 
schools that attend to the interests and challenges of school 
and university simultaneously.
    So, for example, with our partner schools we are 
redesigning roles that enable teacher candidates to learn the 
craft of teaching by working on teams with experienced and 
novice teachers over the course of a year. Candidates act as 
mentors and tutors for pre-K-12 students and as increasingly 
able assistants for master teachers. In turn, master teachers 
develop and refine new skills as they support the development 
of novices and peers.
    By matching up our candidates' needs for real-world 
experience and models of practice with schools' needs for more 
skilled and caring adults to work with learners we improve and 
expand the resources available to schools in which resources 
are scarce. Again, we are positioning teacher education in 
relation to a bigger project of building schools' capacity to 
serve all learners well.
    We are finding that really making a difference for students 
requires moving beyond egg-crate models of schooling that 
isolate teachers from one another, and recruiting and retaining 
a more talented and diverse workforce. In my written testimony 
I have suggested what this can look like in terms of 
reconfigured schedules and teaching assignments, differentiated 
staffing patterns, and new compensation arrangements.
    In re-centering the learning of teaching and practice we 
are not abandoning theory and research. Rather, throughout our 
programs we help candidates draw connections between their 
experiences in the field and cutting-edge research on learning 
and teaching. These connections help candidates develop 
principled understanding illustrated by real-world examples 
that can guide their future practice. Through these activities 
candidates also learn to participate in the kinds of data-
informed collegial conversations that can drive learning 
throughout their careers.
    So how do we know we are preparing candidates who will make 
a positive difference? Here are four measures we are using.
    Before they graduate, candidates in my department must pass 
the edTPA, a nationally, externally scored, performance-based 
measure of candidates' abilities to plan, enact, and assess 
teaching and learning of rigorous content. We want to be sure 
that our candidates are proficient before they become teachers 
of record.
    Once candidates take positions teaching, we collect survey 
data on employer and graduate satisfaction 1, 3, and 5 years 
out from graduation. These data indicate that our graduates 
feel well prepared, and their employers agree.
    We are now experimenting with surveys of student 
perceptions of the classrooms in which our graduates teach. 
Recent studies show interesting correlations between the degree 
to which learners feel challenged and supported and their 
achievement.
    And finally, we are working with graduates to gather 
administrators' ratings of their teaching on state-approved 
observation protocols.
    This collection of measures, combined with benchmark 
assessments throughout our programs, provide faculty with 
invaluable data to check impact and support program 
improvement.
    Let me close by calling out two areas in which federal 
policymakers can help support advancement in the field. First, 
we need policy leaders to incentivize partnerships between 
schools and preparation programs and to continue to invest in 
design-based research to help build and study new arrangements.
    Second, policymakers can streamline and refocus reporting 
requirements so they are targeted and productive, efficient and 
fair. Data collected should be usable and useful, and reporting 
guidelines should apply in equal measure to all organizations 
that prepare teachers.
    Thank you again for the opportunity to testify before you 
today. I look forward to answering your questions.
    [The statement of Dr. Singer-Gabella follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Rokita. Thank you, Doctor.
    Dr. Peske, you are recognized for 5 minutes.

 STATEMENT OF DR. HEATHER G. PESKE, ASSOCIATE COMMISSIONER FOR 
 EDUCATOR QUALITY, MASSACHUSETTS DEPARTMENT OF ELEMENTARY AND 
       SECONDARY EDUCATION, MALDEN, MA, DEMOCRAT WITNESS

    Ms. Peske. Thank you for the opportunity to testify this 
morning. I care deeply about the issue of educator 
effectiveness not only because it is my job but because right 
now my first-grade daughter is sitting in a public school 
classroom in Massachusetts.
    Just last night I was meeting with faculty and 
administrators from educator preparation programs. One 
professor made the confession, ``Within our program the quality 
of the teaching placements varies tremendously across our 
placement sites.''
    Three months from now hundreds of graduates from 
Massachusetts' colleges and universities will graduate with a 
license to teach. They will look for jobs--some in 
Massachusetts, some in your districts. Some of them will be 
well prepared and some of them will be ill-equipped for the 
challenges of the classroom. This must change.
    In Massachusetts we are building a comprehensive system of 
educator preparation strategy to ensure that these program 
graduates make impact with their students. The comprehensive 
strategy includes four components, which I will outline and 
describe briefly today.
    The first component is standards and accountability. We 
have new regulations for educator preparation program approval 
in order to strengthen program accountability. We have a 
revised program review and approval process in order to build a 
robust evidentiary base from which to decide whether a program 
can continue or whether it should be closed down.
    The second component is investing in local districts. It is 
essential that local school districts and schools are invested 
in educator preparation. We require programs to report on these 
partnerships and how the partnerships specifically impact the 
candidates and, more importantly, how they impact the students.
    This year we will conduct and publicly report on surveys of 
district personnel in order to gather data on their level of 
satisfaction with the program graduates who have been hired as 
teachers and administrators in their schools. We hope these 
data will catalyze conversation and further innovation.
    The third component is transparency of data and reporting. 
For every preparation program in our commonwealth, including 
our alternative providers, Massachusetts publishes a publicly 
available Educator Preparation Program Profile. This is a way 
to both invest in local districts and also to provide data for 
the educator prep programs and the alternative programs 
themselves.
    For the first time we are linking educator workforce data 
and educator effectiveness data to educator preparation 
programs. We will report this annually and publicly on things 
like program graduates' educator evaluation ratings, program 
graduates' impact in producing growth in student learning, 
employment data, as well as the survey data I mentioned a 
moment ago. By analyzing the data from the programs, along with 
other data, we will be able to identify low-and high-performing 
programs, programs we should replicate and programs we should 
not continue.
    The fourth component of our strategy is support. We are 
committed to providing programs with easy-to-access analytic 
reports on a variety of data to answer a number of different 
types of questions, such as the following: Where are my program 
graduates being employed? Do they stay? How long?
    I want to shift now to talk about the federal role. We 
believe in Massachusetts there is a critical role for the 
federal government in promoting effective teacher education 
programs, so I appreciate your consideration of the following 
three ideas.
    First, we need help from you in order to support and 
disseminate research on effective programs. The current 
research is really limited in being able to answer questions 
like, which components of educator preparation are most 
impactful when it comes to producing growth with students? Much 
in the same way as the federal government now supports the What 
Works Clearinghouse for local school and district policy and 
practice, we need a similar analogue in educator preparation.
    Second--and this has been mentioned already by my 
colleagues--we need help in Title II reporting. We need you to 
reduce the hundreds of data elements we are now required to 
report on. We need you to develop common metrics and we need 
you to focus on the highest-priority data.
    Right now my staff spends far too much time collecting 
meaningless data to report on Title II. There is little or no 
comparability across the states when we report on these 
elements, and the metrics and definitions are not common.
    We also need a stronger focus in Title II reporting on 
outcomes data rather than the hundreds of input measures we 
provide for you now.
    Number three: We need to provide federal subsidies to 
establish new clinical models. Our clinical sites are 
suffering. We need funding to sustain these areas.
    Right now the federal government provides subsidies to 
teaching hospitals in order to train the next generation of 
doctors. We need something similar in terms of training the 
next generation of teachers.
    Without this federal subsidy some hospitals might not take 
on the task of training doctors. The same is true for our local 
school districts, and I can talk a little bit more in the 
questions about the details of that.
    I want to conclude with a short story. On July 3, 1839 
three young women braved a thunderstorm to enroll in 
Massachusetts' first state-supported school dedicated to 
training teachers--the first Normal School in America. This 
year, 2014, marks the 175th anniversary of the Normal School in 
Massachusetts.
    As we as a nation reflect on our history of educating 
teachers we have to ask ourselves now, what can and should we 
do to ensure that the experiences of teacher and principal 
candidates prepare them to promote and to excel in developing 
college-and career-ready students?
    I look forward to the discussion and happily answer your 
questions. Thank you again for the opportunity.
    [The statement of Dr. Peske follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Rokita. Thank you, Doctor.
    Ms. Hall, you are recognized for 5 minutes.

 STATEMENT OF MS. CHRISTINA HALL, CO-FOUNDER AND CO-DIRECTOR, 
              URBAN TEACHER CENTER, BALTIMORE, MD

    Ms. Hall. Thank you.
    Chairman Rokita and Chairwoman Foxx, Representative Polis, 
and members of the subcommittee, thank you for inviting me here 
today to speak with you about this important topic--teacher 
quality.
    My name is Christina Hall and I am cofounder of Urban 
Teacher Center. We are a nonprofit that partners with urban 
schools and districts to prepare new teachers.
    We have 231 teachers in almost 75 schools in Baltimore and 
D.C. Program satisfaction is high--100 percent of our teachers 
report that our training gives them the knowledge and skills 
they need, and 90 percent of our school partners returned this 
year. This is testament to our value because principals pay to 
bring us to their buildings.
    Best of all, we can already see that our teachers are 
getting results. Last year 79 percent--that is 79--79 percent 
of our first-year teachers had student achievement gains equal 
to or better than the typical second-year teacher.
    When we set out to build our program we knew that holding a 
degree in teaching is not a proxy for effectiveness, but 
because of prevailing compensation systems we wanted to offer 
an M.Ed. We considered applying to become our own institute of 
higher ed, but an often onerous and sometimes irrelevant 
process kept us from seriously considering it.
    Instead, we looked for a partner that would embrace broader 
criteria for hiring clinical faculty, embark on creating a 
whole new preparation program, and accept responsibility for 
master's conferral while releasing approval for certification 
to UTC. We spoke with almost a dozen colleges and universities 
and eventually found Lesley University in Massachusetts. Lesley 
agreed to take the leap with us.
    Here are a few features of our model: Residents get more 
than 1,400 hours of real-time experience in four different 
classroom settings before they get the keys to their own 
classroom. Every successful candidate earns dual certification 
and a dual master's in their subject area and special 
education. And every participant receives sustained, on-the-job 
coaching for 4 years.
    UTC holds the highest bar for teacher certification in the 
country, and not every teacher who begins our program gets 
certified. Even with intensive support not every promising 
candidate develops the qualities of a great teacher. We believe 
it is better that we incur the cost of that discovery than our 
children.
    We begin by recruiting diverse, high-achieving, results-
oriented individuals. Only 25 percent of applicants are 
accepted into our program and only 77 percent of our residents 
go on to become teachers of record in year 2. Forty percent of 
departures in the first year are voluntary; the other 60 
percent don't meet our rigorous expectations.
    UTC's attrition is strategic, intentional, and minimizes 
disruption to student learning. We are very proud to say that 
we have had almost zero attrition during the school year in 3 
years in Washington, D.C., and only two instances in 3 years in 
Baltimore. That is an extraordinary rate for new teachers in 
these challenging districts.
    Participants who meet our bar for practice and coursework 
earn a master's degree after 2 years, but full, permanent 
certification takes longer. We only approve teachers for full 
certification after they have proven their effectiveness 
through student achievement gains and observable classroom 
practice. It is an intensive process involving multiple 
measures but our logic is simple: We believe the best way to 
guarantee that new teachers will be effective is to show that 
they have been effective.
    In our experience, at least three challenges should be 
addressed in order to ensure a great teacher every time for 
every student. We would encourage policy leaders at all levels 
to focus on broadening access to existing federal dollars.
    Open up the routing of funds intended for K-12 systems by 
allowing districts to partner with institutions of higher ed 
and innovative organizations. Opening up access with quality 
control safeguards focused on outputs will result in stronger 
partnerships for K-12 school systems to improve teacher 
preparation.
    Next, encouraging environments at the state level that are 
more hospitable to alternative cert providers. In order to 
foster more innovation in all markets, encourage states to 
permit alt cert providers to enter the teacher prep market. The 
best legislation will support and not encumber existing 
innovation while simultaneously encouraging new innovation.
    Last, spotlighting what works, as I heard from a colleague 
up here on the panel. Because we haven't any time to waste, 
innovation and practice across the sector should be accompanied 
by an assessment of what works and what doesn't. The federal 
government can be a valuable resource here in evaluating and 
providing information on effective practice, partnership models 
and design to inform the entire sector and eliminate 
duplication of efforts.
    Thank you for the opportunity to testify about our model, 
and I look forward to fielding questions, if any, on this 
important topic.
    [The statement of Ms. Hall follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Chairman Rokita. Well, thank you, Ms. Hall.
    Thank you all.
    We will now proceed to member questions, and Dr. Foxx and I 
are offering to hold off our questioning for a while in order 
to accommodate possibly the schedule of other colleagues.
    So with that, Mr. Walberg--Chairman Walberg, you are 
recognized for 5 minutes.
    Mr. Walberg. Thank you so much. Appreciate your willingness 
to forego the questions to let further down the table go first, 
so thanks, though.
    I really, really enjoyed hearing from each of the 
panelists. Having a daughter-in-law who went through that 
experience of first-year teaching out of college--excited to do 
it, was put into a full-time substitute position because the 
teacher before her had just walked out of the room of a special 
needs classroom in the south side of Chicago and never came 
back. My daughter-in-law loved that first year of teaching.
    Second year, when she was given the class as a full-time 
teacher by her principal, she found out the challenges of 
teaching that consist of paperwork for both the Chicago Public 
School System, Illinois, and No Child Left Behind reporting 
requirements. She came to me with tears in her eyes one time 
and said, ``Dad, I am not sure I am cut out for teaching.''
    I knew that was wrong. Her principal, fortunately, knew 
that was wrong and talked her through that year.
    So what you are talking about is so important, and 
appreciate what you are doing.
    Dr. Peske, let me ask you, what part can a building 
principal play in teacher success? Are we using principals and 
training principals and putting them in a position that is 
vital for success of that first-, second-, third-year teacher 
to make sure the process goes well?
    Ms. Peske. Thank you for your question, Mr. Walberg. It is 
terrific.
    You may have noticed throughout my testimony I was talking 
about educator preparation, so in Massachusetts that includes 
teachers and principals. Principals are critically important to 
the efficacy of teachers. They are also critically important to 
helping the effective teachers stay in those classrooms.
    We have a whole turnaround effort in Massachusetts around 
some of our lowest-performing schools, and what we see is the 
Pied Piper Effect, which is when really effective principals 
leave a school to head to one of our turnaround schools their 
cohort of effective teachers follows them. So all of the things 
that I described this morning apply to our educator preparation 
programs, i.e. our principal preparation programs as well as 
our teacher preparation programs.
    Mr. Walberg. Is the principal model--could I describe it 
more as a mentor, coach model as opposed to administrator?
    Ms. Peske. Yes, sir. In fact, we also are really focused on 
principals as instructional leaders, and so our professional 
standards for administrators, which are the standards the 
preparation programs use when designing their programs, are the 
same exact standards that we use in the evaluation of our 
administrators.
    So the prep programs are preparing the administrators to go 
in under the same standards by which they will be evaluated 
once they are actually in districts, and those are much less 
focused on kind of the business aspects of schooling, which is 
what we had done in the past, and much more focused on 
mentoring, sustaining, being an instructional leader within the 
school.
    Mr. Walberg. Well, I applaud you for that because--
    Ms. Peske. Thank you.
    Mr. Walberg.--because until we get principals out of their 
office filling paper and into the classroom knowing what their 
front line is doing and assisting them in that, I don't think 
we achieve. So thank you.
    Dr. Gist, in your testimony you discussed some of the 
reforms Rhode Island has implemented--creative reforms in 
improving teacher quality. One appears to be mentoring.
    You call it an induction coach--assisting teachers in their 
transition in the field. I would assume that that is because 
you don't want to waste one full year of students' lives with 
an ineffective teacher.
    Could you discuss how this process works and its 
effectiveness in generating successful teachers?
    Ms. Gist. Yes, sir. Thank you, actually, for asking about 
beginning teacher induction because it is an incredibly 
important part of our education system.
    When we think about an educator's career we really look at 
the entire pipeline, and one part that occasionally gets 
overlooked is that part from the time they leave a preparation 
program when they enter that classroom for the very first time. 
Obviously excellent principals can assist with that, but an 
induction program is really a very intense program that assigns 
an experienced teacher coach who is released from his or her 
classroom on a full-time basis to be able to spend time in a 
variety of different beginning teachers--they have sort of a 
cohort of beginning teachers that they are working with.
    And they spend time in their classroom; they are a trusted 
advisor. They are not there to evaluate; they are there to 
provide support and assistance as the beginning teacher goes 
through his or her first 2 years.
    And so induction, you know, I would agree with my 
colleagues about the need for research, but we do have some 
areas where we have some research and one of them is in the 
importance of supporting our beginning teachers through 
programs like induction.
    Mr. Walberg. Mr. Chairman, could I ask one concluding 
question?
    Chairman Rokita. Your time is expired, Chairman.
    Mr. Walberg. Okay. Thank you.
    Chairman Rokita. Mr. Polis, you are recognized for 5 
minutes.
    Mr. Polis. Thank you, Mr. Chairman.
    Want to address a question to--the first question to Dr. 
Peske.
    Title II of the Higher Education Act requires states to 
identify low-performing schools of education. Surely they are 
not all high-performing or the state of the profession today 
would clearly be in a better place.
    But in your written testimony you mention that to date 
Massachusetts has never identified a low-performing preparation 
program. Why do you think states might be hesitant to identify 
what clearly must exist, which are low-quality preparation 
programs, and what can the federal government do to ensure that 
states are holding preparation programs accountable and working 
on improving the quality?
    Ms. Peske. Thank you for your question, Mr. Polis. I did 
write that in my written testimony--that we have never 
identified a program as low-performing in Massachusetts, I 
think mostly because our program review and approval process 
was so weak in the past that we didn't have a strong evidence 
base from which we could declare a program low-performing.
    Much in the case when you build a case, and particularly 
when you are building a case with bad news for your program, 
you want to be able to refer to some evidence to say, ``This is 
why we are closing your program down,'' or, ``This is why we 
are not approving it.'' In the past we didn't have that 
evidentiary base, and we particularly didn't have it around 
outcomes--that is, educator outcomes and their impact on 
students.
    Mr. Polis. And then moving to Title II reporting and 
establishing common metrics, what more can the federal 
government do to ensure that states have the right metrics to, 
in fact, improve the quality of their teacher preparation 
programs?
    Ms. Peske. Sure. So I will mention a couple.
    We are not required to report now on hiring and retention 
data. We don't report on evaluation and impact ratings, which 
we in Massachusetts have and would be delighted to turn over to 
the feds and we think other states should do so as well.
    We would like to see requirements for us to report on the 
percentage of graduates employed in high-need, low-performing 
districts and high-need subject areas. We also would like to be 
required to report on how our programs do in terms of their 
performance assessments.
    Those are a few examples.
    Mr. Polis. Thank you.
    My next question is for Ms. Hall.
    You know, Urban Teacher Center is already doing a great job 
improving the quality of teacher preparation, harnessing the 
power of innovation to create a new and effective way to 
prepare great teachers and principals. That is consistent with 
why I introduced with Congressman Petri the GREAT Act, which 
encourages the growth and development precisely of these types 
of teacher or principal academies.
    And I would like to ask how your model encourages 
innovation, ensures program quality, and what federal barriers 
to your success should we focus on removing?
    Ms. Hall. Great. Thank you for asking. And there are lots 
of aspects of the GREAT Act that we do support--highly 
selective recruiting, clinically based programming, and most of 
all, focus on results.
    I would say that the way that we are able to be innovative 
and to be innovative within the regulations and the rules as 
they currently exist can be embodied by other organizations. We 
have been able to crack open a program of study and a course 
sequence for higher ed master's preparation to prepare teachers 
in a way that is clinically based and focused that is entirely 
possible for other folks that have the same appetite and same 
inclination.
    I would say that in terms of what is next for us in terms 
of where are there opportunities for expansion either of UTC or 
of models like UTC, I will say that initially we were denied 
from offering federal student aid to people in our program.
    That was an incredible lift for my organization. We had to 
go out and we raised $20,000 for every person in our program so 
we could turn around and loan it to them. And we are not a bank 
and I am not a lender. That is a different committee. And we 
had to get out of that business really fast, and it took us 3-
1/2 years to get federal approval to offer loans through our 
higher ed partner.
    Mr. Polis. Streamlined approval would be one of your 
suggestions?
    Ms. Hall. Absolutely. Streamlining approval, and then also, 
wherever the federal government can provide opportunity for the 
organizations to stand in the same way that higher ed does and 
partner with K-12 school systems, we see them as our ultimate 
customer and we would like to have the same opportunity for 
existing federal funds for those partnerships and, frankly, to 
be able to do business in more districts and more states. Right 
now UTC is blocked from some states from doing business.
    Mr. Polis. By the states?
    Ms. Hall. By the alt cert requirements in the states.
    Mr. Polis. Okay. Is that because they are not uniform 
across the states?
    Ms. Hall. That is right.
    Mr. Polis. Okay. Do you see any federal role in that?
    Ms. Hall. I think wherever the federal government can 
encourage states to be much more innovative in how they decide 
who is allowed to prepare teachers, so I do see a role for the 
federal government there. I wouldn't presume to state exactly 
what it is.
    Mr. Polis. You know, and this is what we see in education, 
often it takes the federal government to play a disruptive role 
to allow for choice and innovation to occur at the state or 
district level, particularly when you have legacy monopoly 
providers and it is difficult to introduce change into the 
system.
    I yield back the balance of my time.
    Chairman Rokita. Thank the gentleman. Gentleman's time is 
expired.
    Mrs. Brooks, you are recognized for 5 minutes.
    Mrs. Brooks. Thank you, Mr. Chairman.
    And welcome, everyone.
    My question--I am going to start out with Dr. Singer-
Gabella--is with respect to the partnerships between higher ed 
institutions and school districts and how important those are 
to ensure that we have the most effective teaching programs 
possible. Can you expand a bit on what your partnerships are at 
Vanderbilt and other higher ed institutions and really what is 
the role that the school district should be playing in ensuring 
that those partnerships are so strong?
    Ms. Singer-Gabella. In my testimony I talked about the need 
for all of us to be able to innovate and be flexible around 
these partnerships, and we have spent the past couple of 
years--given that the landscape is changing for schools as well 
as for education preparation providers, we are trying to 
identify what are the needs and match them up.
    At the core, really, is saying, what can you do when you 
have a group of talented young folks who need to learn about 
students, need to learn to develop relationships with students, 
who are really attending carefully to the assessment of student 
thinking and thinking about how do you link kids with content? 
How can we create experiences with the districts?
    I pointed to a particular partnership right now that we are 
building with--in metro Nashville with a school that happens to 
be one that is on the line. It was at risk for state takeover, 
and so the principal and the teachers feel compelled but also 
really anxious to think differently and out of the box about 
what they are doing.
    So we have been able to put--in the school we have 10 what 
we call--they have called ``learning assistants.'' These are 
folks who are essentially reliable members of the school staff 
who are working closely with students, who are working closely 
with teachers, and they have--those extra bodies have kind of 
bought flexibility in staffing arrangements so that there are 
teams that are collectively responsible for groups of students, 
we can flexibly reassign students in groups to go work with you 
because you happen to be really good at paying attention to 
student thinking and thinking about what that next step is for 
an English-learner in being able to make sense of certain 
content. But they may go to Dr. Gist and me because I am 
learning from Dr. Gist how it is that I am going to organize a 
particular subject--you know, particular content.
    But the point is that we are trying to, by--think 
creatively and out of the box. What does it look like when you 
link talented educators with groups of students, and what can 
we do to kind of break--again, I pointed to the egg-crate 
model. Can we think differently about how we put adults in the 
building to serve learners?
    But really specifically for districts, what we are talking 
about is matching up expertise around supports for English-
learners, content tutors, mentors. We are talking about 
bringing in faculty who are working at the cutting edge of 
research and thinking about learning, and can we make those 
resources available to schools? And obviously for the schools 
of education we are providing opportunities for learners to--
for our folks to be out in the real world working with real 
students.
    Mrs. Brooks. Dr. Gist, I have a question with respect to 
how Rhode Island might be partnering with higher ed 
institutions, particularly to help do a better job in our 
schools identifying students with special needs, with learning 
disabilities, with reading issues, and so forth. Can you 
comment at all on what Rhode Island might be doing with respect 
to higher ed training for teachers to do a better job with all 
those challenges in our schools?
    Ms. Gist. Well, I think that in our work with our 
institutions of higher education and our alternative programs 
one of the things that we want to make sure is that our 
educators are prepared to work with every student in our 
classroom, and I think that in many ways we have experts in our 
institutions of higher education who are partnering with 
experts in our school districts to learn from one another about 
how to best serve all students, including students with special 
needs.
    We have many, many teachers in Rhode Island who are dual 
certified, so--Christina talked about that in terms of UTC--and 
I think that is really important that educators--all educators 
come into contact and serve students with special needs, and so 
I think having that preparation is very important.
    Mrs. Brooks. I certainly appreciate the dual certification 
and certainly hope that we can expand that across the country. 
Thank you.
    I yield back.
    Chairman Rokita. I thank the gentlelady.
    And Ms. Bonamici is recognized for 5 minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    And thank you to all the panelists. I really appreciate 
your years of expertise, and especially thank you for the years 
that you have spent teaching. It is critical to have teachers 
and former teachers working to strengthen the profession, so 
thank you.
    Dr. Singer-Gabella, you mentioned three factors that make 
it difficult to retain intelligent and committed individuals 
into the teaching profession: the absence of a real career path 
that allows growth while still teaching, low levels of respect 
and compensation, and an imbalance of interests in test scores 
that saps motivation. So how can these be overcome? And I know 
we could talk about that for a few hours, but if you could 
briefly address that because I do have another question as 
well.
    Ms. Singer-Gabella. I think that we are really just trying 
to figure that out. We do feel strongly that--and I think all 
of the panelists here would agree that it is critical that we 
make sure that people who step into the classroom are ready to 
take on the challenges of being in classrooms and that we have 
measures to make sure before, you know, before they get out 
into that first year and they are teachers of record that they 
are able to do so.
    But again, I think that we need to be paying--part of this 
is an infusion of resources, part of it is making sure that we 
are not relying on temporary measures, and that system churn is 
really highly problematic. We need to work together to try to 
stabilize what is going on in schools.
    Ms. Bonamici. And I also encourage all of you to join me in 
what I do, and especially when I am in my district, and that is 
to highlight the positive things--
    Ms. Singer-Gabella. Absolutely.
    Ms. Bonamici.--that are happening in our public schools. 
Because I have to tell you, there is a lot of public school-
bashing out there that doesn't help motivate people to enter 
the teaching profession.
    Ms. Singer-Gabella. Right.
    Ms. Bonamici. So let's talk about how we can improve, but 
also spend a lot of time highlighting all the positive things 
that are happening.
    Dr. Peske, I have heard a concern about accountability 
systems that are used that evaluate teacher preparation 
programs, that they may not consider all the goals of teacher 
preparation. They are broader than simply increasing students' 
academic achievement. Focusing on the whole child--for example, 
strengthening students' abilities to collaborate, communicate, 
nurturing creativity and curiosity are also important goals, 
and today's teachers need to be culturally competent as well, a 
skill that can be difficult to measure on a certification test.
    So how can we make sure that we are recruiting a diverse 
teaching workforce and developing educators who can challenge 
students from diverse cultural, ethnic, and linguistic 
backgrounds?
    Ms. Peske. That is a good question. We start with the goal 
for our programs of recruiting a diverse workforce. That is 
part of our expectation for them. That is built into our 
standards. And then we measure that with data, so we make 
accessible to them years' worth of data on the participants in 
their programs as well as how those participants do once they 
get to the schools.
    Additionally, our professional standards for teachers, 
which are the standards with which the preparation programs use 
to build their program, those are the same standards that we 
use for the evaluation of our teachers once they get to the 
classroom, and built into those standards are expectations 
about meeting the needs of diverse learners.
    Ms. Bonamici. Terrific.
    I have another question. Dr. Singer-Gabella pointed out, 
rightly so, that there is quite a bimodal distribution of 
school performance, with schools at one end that are doing well 
with respect to achievement, and a significant number of 
schools, typically at the lower end of the socioeconomic 
spectrum, that aren't doing well.
    So I wanted to ask you, Ms. Hall, in your testimony you say 
that you treat public schools where your teachers serve as 
customers and you partner with district and charter schools 
that want to grow their talent and they pay a sizeable fee for 
each resident or fellow. So can you address how, then, can your 
residents and fellows go into schools that don't have the 
resources to pay a sizeable fee and whether you can measure 
UTC's success if you are not in a broad range of schools across 
the socioeconomic spectrum?
    Ms. Hall. Yes. In fact, the large percentage of schools 
that we are in have very high farms rates, and what we do is we 
spend a lot of time with principals and leaders of those 
schools who have a very strong interest in identifying a human 
capital solution for that school and thinking differently about 
their budget. Our program is Title I and Title II approved, and 
oftentimes what we find folks do is they--essentially they are 
prioritizing choices and decisions, because folks--these 
schools do not get more money but they are making decisions 
about whether or not to hire an aide for a classroom, for 
example, or to hire a UTC resident, sometimes for less than 
what a cost of an aide would be.
    We would like to bring down the cost that our schools pay, 
but we also think it is important for our schools to have some 
skin in the game along with us.
    Ms. Bonamici. Terrific.
    And I see my time is expired. I yield back. Thank you, Mr. 
Chairman.
    Chairman Rokita. I thank the gentlelady.
    Mr. Guthrie is recognized for 5 minutes.
    Mr. Guthrie. I want to thank you, Mr. Chairman.
    Thank you for being here.
    And, Dr. Singer-Gabella, I am from Bowling Green, Kentucky, 
so just up the road a little bit, so follow metro--a lot of, 
some of our media is there, and appreciate what Peabody does. 
And you mentioned the work, in your testimony, of reforming 
educator preparation is underway in states and professional 
associations, and you also mentioned your work in Tennessee, 
which you have already mentioned.
    And so as we are taking a--as we are looking at Title II 
reauthorization for Higher Education Act, would you give some 
recommendations that we should be thinking of that would 
encourage you to do this and not hinder you from doing this? 
What changes would you like to see, or additions?
    Ms. Singer-Gabella. I think there are a couple of things, 
and in terms of reporting, we want to be able to have questions 
that are going to help us--or we want to be able to use data to 
help us ask questions and answer questions that are going to 
move the field forward. So compelling questions for us are, you 
know, who is entering, on what paths, and how and where are 
they being prepared to be successful?
    So can we begin to look at basic demographic data? There 
are pieces that are already there that I think are incredibly 
useful. My colleagues have pointed to other data that would 
also be helpful around retention a certain number of years out, 
employer--you know, employer outcome data. How are people doing 
in terms of their performance? I am not sure--is this where you 
are--
    Mr. Guthrie. Your suggestions on what we need to--your 
expertise what we should be doing to help you is it, so that is 
exactly right.
    But I know, Dr. Gist, I think you mentioned--I think it was 
you--that the Title II burdensome reporting requirements--I 
think you mentioned you have--
    Ms. Gist. I think several of us mentioned that--
    Mr. Guthrie. Okay. Well, I know it came from at least one 
of you if not all of you. So what are some examples of what you 
think is burdensome, and what would we do different? How would 
you want to do it different? It kind of ties into the same 
question I just asked.
    Or if anybody else wanted to answer that, too, I would be--
    Ms. Gist. Yes, sir. Actually, so right now in the current 
reporting structure there are over 400 data elements that are--
actually, our preparation programs do most of the gathering and 
at the state level we compile that information and send it on 
to the federal government. And I think--
    Mr. Guthrie. Do you see the federal government--I am sorry 
to interrupt--when that goes forward do you hear information 
back that helps you, or is it just goes forward and you don't 
know what happens to it?
    Ms. Gist. No, it is not a very robust process. This is--
    Mr. Guthrie. Okay.
    Ms. Gist.--you know, and I think that is part of the 
concern is that there is a collection of data but it isn't the 
data that we need to be using. And so I would agree with the 
recommendations that you have heard but I would--I think the 
federal role in policy-setting is looking at the what and not 
exactly the how.
    So I think there are some data elements that are probably 
common across programs that might be useful--things like the 
GPA or the entrance--some sort of entrance measures for 
candidates who are coming into programs. I also think there are 
some student outcome measures, because we haven't talked a lot 
about that, but you know, one of the most important things we 
need to be looking at is whether or not those who are in our 
preparation programs are able to move student achievement and 
help our students learn.
    But I think what we have to use caution about is over-
prescribing exactly how to ask for that information. So what I 
would encourage you to consider is asking us in the states to 
tell you what it is we are doing to expect that our programs 
are setting strong selection criteria, are preparing educators 
well, how are they measuring that, and have us tell you the 
processes that we are using. And I think through that we are 
going to learn more and more about this as we continue to 
increase this area of our field.
    Mr. Guthrie. I think that is helpful because I worked in 
manufacturing. If I needed an operator of a machine to give me 
information--record their processes--I got a lot better 
information if they knew what I was doing with it because they 
knew how it would benefit them when I came back to them to fix 
the process.
    So I know, Dr. Peske, do you have any--I know you mentioned 
that, as well. Do you concur with kind of the same thought 
here, or--
    Ms. Singer-Gabella. Yes.
    Mr. Guthrie. Or Dr. Peske. Both of--any of you can--
    Ms. Singer-Gabella. Oh, I am sorry.
    Mr. Guthrie. Any of you can answer, yes.
    Ms. Singer-Gabella. No, go ahead.
    Mr. Guthrie. Any of you.
    Chairman Rokita. In 50 seconds.
    Ms. Peske. I concur. I do think there is a federal role, 
but I concur with the idea that we need fewer measures and more 
meaningful ones.
    Mr. Guthrie. Okay.
    And then I guess I am down to 30 seconds, and I was going 
to ask Ms. Hall how she found her students.
    How do you recruit and how do you come out with your 
students? But you are going to have a very brief answer on 
that, I hope.
    Ms. Hall. It will be brief.
    So we recruit nationally--40 percent come from this region; 
60 percent come from outside the region. Forty-four percent of 
our incoming class of residents last year were people of color, 
so that is a very high focus for our program. We do that by not 
only heading to college campuses but we also find that programs 
like City Year, Jumpstart, Breakthrough Collaborative are 
training folks that already have an appetite for this and have 
already worked in settings that are sometimes as challenging as 
our schools.
    Mr. Guthrie. Well, thank you. Just perfect.
    I will yield back.
    Chairman Rokita. I thank the gentleman. Gentleman's time is 
expired.
    Mrs. Davis is recognized for 5 minutes.
    Mrs. Davis. Thank you, Mr. Chairman.
    Thank you all for being here. I missed a little bit of your 
testimony here but I think I have a sense of what you all were 
saying, and just picking up on some of the comments that have 
been made earlier, I had an opportunity to just hear from the 
president of the World Bank today talking about--OECD schools 
that--schools including--from Finland, South Korea, that have 
all ranked so much higher than the U.S. in their PISA scores, 
which really reflects students' ability to reason, to problem 
solve.
    And one of the factors, of course, is that in the schools 
that they have been looking at the barrier to getting into 
teaching is far higher, they are paid much better, they are 
highly esteemed, and that is a situation that I think we all 
talk about, we all want more here, and yet it seems somewhat 
difficult to have the level of discussion focus as much on some 
of those areas as what we are talking about, which is equally 
important.
    I just wondered about your thoughts on that. As you look to 
models here in the United States, when you are obviously 
representing a number of them that are strong, where does that 
fit? Because the esteem for teachers and what we see sometimes 
as low morale really does factor in here. How important do you 
think that is?
    Ms. Gist. I would be happy to start. Thank you.
    It is incredibly important, and I think, you know, when we 
look at what happened in Finland, there was actually a very 
dramatic change in their expectations for who was entering into 
the profession and the way in which they were preparing them. 
So we, I think, are all, in our states, launching into this--in 
a little bit more of a gradual way--I mean, for us it feels 
pretty significant and I know for our programs in Rhode Island, 
given how much we are doing, it feels pretty significant, but 
when you look at what has happened in countries like Finland it 
really was much more dramatic there the way they tackled that.
    But I think when we look at what we can learn from what 
they did, it certainly is raising the expectations of the 
quality of candidates who come into the programs in the first 
place. But it is also the depth of the experience that they get 
when they are in their preparation program. It is quite 
academic, a heavy focus on content.
    You know, they really are professionals; they are 
practitioner researchers. They are learning not just to 
instruct but they are actually becoming professional educators, 
and then I think what I see as some of the biggest 
differences--and it definitely does change the perception of 
the field, which then begins to spiral upward.
    Ms. Singer-Gabella. I would agree with all of that. And 
then there is also--something that will attract a more diverse 
and talented pool is the idea of having a career path ahead of 
me so that I know that I have opportunities to learn and to 
grow. And so we need to be able to build those into our school 
systems, which typically in districts really are very flat 
organizations and the way that one progresses is to move out of 
the classroom.
    So we want to be able to find ways to differentiate roles 
for teachers to provide them with opportunities to learn and 
grow, and also to be compensated throughout. So in Finland when 
one attends a preparation program one does not forego years of 
income. One is supported in that process.
    Ms. Peske. I will just add quickly, we are using the 
accountability policies and our turnaround work as a laboratory 
for restructuring the career for teachers in an effort to learn 
from what we are doing in our turnaround schools, which are now 
under state receivership, in an effort to learn and better 
develop the profession.
    I would also add, though, it is the responsibility of the 
educator preparation program, as far as I am concerned, to 
infuse a sense that this profession is the most impactful one 
you can enter. So oftentimes I hear preparation programs saying 
things like, ``Yes, well we can't really do much. You know, we 
do some things and then they get into these schools.'' And to 
me, like, what is the point of your program if not to say that, 
like, you are helping to prepare these people to make impact?
    And finally, I would be remiss if I didn't point out that 
Massachusetts is also one of the highest-performing states on 
the PISA results in contrast to other nations.
    Mrs. Davis. And, Ms. Hall, if you could include as well, 
because the turnover--yes, I think you were addressing some 
issues--keeping students for at least 4 years.
    Ms. Hall. Right.
    Mrs. Davis. We still see a lot of turnover for entering 
teachers.
    Ms. Hall. Right. We are definitely after building better 
teachers and also building teachers that are meant to last. It 
is why our model is designed with a delivery model that is 
longer because it requires a much deeper set of preparation.
    I would echo everything that my colleagues up here said, 
particularly the need for a career ladder and leadership roles 
that keep folks in the classroom in some capacity. But I will 
also add to that that the role of principal--we talked about 
earlier--is just as important here. As a professional teacher 
you want to respect your boss and your peers, and not all 
teachers do.
    Mrs. Davis. Yes. Thank you.
    Thank you, Mr. Chairman.
    Chairman Rokita. Thank the gentlelady. Gentlelady's time is 
expired.
    Mr. Messer is now recognized for 5 minutes.
    Mr. Messer. Thank you. Sorry for not being able to be here 
the whole time. I was over in a Foreign Affairs Committee 
hearing as well.
    I just want to thank you for the important work that you 
do. I mean, I think we all know that the number one indicator 
of student success will be parental involvement, but there is 
no question that the number two indicator of student success is 
a high-quality teacher.
    Kids that have access to a high-quality teacher have a 
chance to learn; those who don't don't. And so thank you for 
your important work.
    Obviously the stakes for society have changed a lot over 
the last several decades. I think one of the challenges we face 
in education is that we have to do more. You know, it used to 
be just a few decades ago if you left school with the ability 
to do basic math and some reading and writing you could get a 
high--you know, you could get a decent job, you could build a 
life.
    In today's world, unless you can learn to learn and be able 
to learn throughout your lifetimes, you are going to struggle. 
And so we have a higher bar that we all have to reach to get 
there.
    I think the testimony that I have heard has been 
fascinating on this important issue. I want to start with Ms. 
Hall.
    Two of the key ideas behind your program is to not equate 
having a master's degree with effectiveness, and having 
teachers prove effectiveness before they get certified. Do you 
think the federal requirements like ``highly qualified 
teacher'' requirements that focus on credentials are helpful, 
and how can more programs embrace the ideas of ensuring 
effectiveness before granting teacher certification?
    Ms. Hall. Yes. So it is a highly complex question, 
obviously, that you have posed.
    In our model we are designed so that all the folks in our 
program must demonstrate effectiveness as demonstrated in part 
by student achievement gains before they are fully certified. 
However, folks do come in and under the first 2 years of 
teaching they are on a provisional license.
    We do support a high minimum standard, if you will, for 
handing out provisional licenses, and then I think it becomes 
the job of how--where is the concentration? Is there a 
disproportionate impact of where these provisional licenses sit 
and in which schools?
    Where can we attach either professional development 
requirements or coaching and push in support not just for those 
teachers so they can move, even coming in with a high minimum 
requirement. We don't want to make the bar too high for 
teachers to get in, but once they are in we need to support the 
heck out of them to make sure they stay because that provides 
not only support for them but then also a safety net for the 
kids they are teaching.
    And then yes, our model--what our belief is is that before 
earning full certification that is the point where 
effectiveness must be demonstrated.
    Mr. Messer. Yes.
    And next question would be to Dr. Singer-Gabella and then 
maybe to Ms. Hall.
    I actually am a Vanderbilt Law School graduate, so I know a 
little bit about the Peabody School, and obviously it is a 
fantastic place.
    I have to admit to you, I was disheartened to hear these 
statistics that we had gone and 25 years ago the average 
teacher had a 15-year career to today, 1-year. My sister-in-law 
is actually a teacher who is 20 years into her career and seems 
to be going strong, so she will be moving that number up. I 
think it is sort of self-evident that if someone has been there 
a year, it creates some real challenges.
    My instincts are that federal policy may not be the answer 
here, but I would just ask to start with you and--Ms. Hall, and 
then any others: What can we do as a society to try to change 
the attrition rate?
    Ms. Singer-Gabella. Again, I think part of it is to 
create--is to ensure that teaching is a career that people want 
to stay in, that they can continue to learn and grow, that they 
see a future in. I think all of us need to convey the 
importance of teaching and the critical impact that teaching 
makes.
    We have got to break away from thinking about teaching as 
something that happens with one teacher and 25 children in a 
classroom and to begin to think about it as something that 
spans the community, that involves relationships with one's 
colleagues, with one's children, with one's families, with the 
community organizations, and begin to think creatively about 
how do we work together to promote a better future for our 
youth.
    Ms. Hall. And I will just add that I think we need to be 
strategic about the teachers that we are keeping. Absolutely we 
want folks to not go home for Thanksgiving if they are a first-
year teacher and not come back, because that happens a lot and 
it happens in a lot of our urban schools.
    But we need to create a climate--an environment that they 
want to be in, both with their principles and with their peers. 
And again, it has to--more so than money, it has a lot to do 
with the quality of preparation that they feel going into the 
classroom.
    If they are not well prepared they are going to be sort of 
taxed and put at their worst every day because they don't know 
what they are doing. I think I was one of those folks in my 
first year as a teacher.
    So a lot of it starts at the front end with better 
preparation, and then better opportunity and ways to stay and 
keep a foot in the classroom as a teacher.
    Ms. Peske. I would just add quickly to that comment that 
this underscores the importance of the clinical training so 
that folks have lots of experiences in schools, lots of time in 
schools, lots of time in different schools, and lots of time in 
schools that parallels what they end up doing when they are 
hired so they are not surprised by some of the challenges they 
will encounter.
    Chairman Rokita. Gentleman's time is expired. Thank the 
gentleman.
    Ms. Wilson is recognized for 5 minutes.
    Ms. Wilson. Thank you, Mr. Chair.
    And thanks to the panel. I have been a lifelong educator 
and served as a school teacher and a school principal, and it--
I have a question for all of you, if I can get your perspective 
on how you feel about testing--high stakes testing.
    It seems that the further along we get in rolling out 
teacher evaluation systems the more questions we have regarding 
value-added formulas, the impact of individual teachers on 
student learning, and the overuse of test scores. Yet the 
conventional wisdom seems to be that we need to hold teacher 
preparation programs accountable by looking at the test scores 
of the K-12 students of program graduates.
    Given some of the problems with using children's test 
scores to evaluate K-12 teachers, do you have any concerns with 
extrapolating such data to teacher preparation programs?
    Ms. Singer-Gabella. There are a couple of issues. One is 
that we don't--the technology just isn't there yet. If you are 
looking at--we have a simultaneous problem of the fact that the 
impact of a preparation institution typically washes out within 
3 to 5 years, and that is just about the time that the value-
added estimates that are derived from students' test scores 
become stable enough.
    So for example, we know that in Tennessee the state is 
relying on 1-year value-added estimates, meaning that there is 
1 year of data for a new teacher that can be used. We know that 
you are very likely--that those estimates are extremely 
unstable, so that from 1 year you may be rated at the top--in 
the top quintile, and then the next year you may be rated in 
the bottom.
    The second problem is that typically programs don't 
graduate enough people in a particular cell--so, for example, 
middle school English teachers--we don't graduate enough of 
those folks in order to have a sample size that would tell you 
that is a reliable estimate of what the program is doing. So I 
realize this is moving to become very technical, but the--given 
that there is great instability in the measure, that we can't 
really rely on that measure to be telling us that--for sure 
that that teacher is doing--that that is a reliable estimate 
for that teacher.
    We can't aggregate back to programs. It becomes very 
difficult to be able to use those scores to tie those back to 
teachers--to particular programs.
    Ms. Gist. I would just add, and first of all I wanted just 
to address the beginning part of what you said. I think we do 
see in some of our schools and classrooms that there is too 
much testing going on. I also think it would be a huge, 
unfortunate reaction if we began to believe that tests were bad 
or did not give us useful information. They certainly do.
    And so the question is, how do we have a comprehensive 
system within our schools where our teachers are on a regular 
basis collecting information for their own use in the classroom 
and in schools, and then how do we do that at a policy level in 
a way that is integrated into our school days and not 
disruptive to learning but actually supporting learning?
    I agree that there are some technical challenges with how 
to do this well for programs, which is why I think it is 
important for us to do this closer to the state and local 
level. We do believe in Rhode Island that it is very important 
to look at outcomes and at including state assessments, and so 
we are using it but we are proceeding with caution and working 
very closely with our school districts and our institutions of 
higher education to make sure that we are carrying it out in a 
thoughtful and careful way.
    Ms. Peske. We are doing something similar in Massachusetts. 
I do believe we need to include these student growth measures 
as part of a multiple measure system, which is the architecture 
of our educator evaluation system. It is built on multiple 
measures.
    And so we will be including information--we don't call it 
value-added but we call it student growth percentiles. That 
will be included in program data that we give back to the 
programs.
    Ms. Hall. And I would be remiss if I didn't address this, 
as well. We are a teacher preparation program that does use 
student achievement as part of a composite score.
    We have gotten smarter about what is fair and what isn't in 
terms of using student achievement gains. The way we have 
designed our program is that teachers have 3 years to build 
their practice as a solo teacher of record, and it is across 
those 3 years that we look at student achievement gain.
    We look at multiple measures. We are also looking at 
classroom observation done by coaching. We evaluate their 
professionalism.
    So it is no one data point, including a student achievement 
data point. And it is using a composite across all 3 years that 
creates something that is flexible enough and that can still 
recognize--you know, in time data tells a story. There can be a 
very weak signal if you don't have a lot of data and you don't 
have enough time, but with the safeguard of a 3-year program 
and of a composite measure that also heavily weighs clinical 
practice and observation and professionalism, in time that 
sends a stronger signal around the capability of teaching. That 
is our belief.
    Chairman Rokita. I thank the gentlelady. Gentlelady's time 
is expired.
    Chairman Roe is recognized for 5 minutes.
    Mr. Roe. Thanks, Chairman. I am sorry for being a little 
bit late. I had another engagement this morning.
    And it is difficult for me, with two degrees from the 
University of Tennessee, to welcome a Vanderbilt, but welcome.
    And I want to thank all of you all. I think you have the 
most important job in America, which is to educate our youth. 
And I started out this Monday morning--Monday at Blountville 
Middle School in the eighth grade speaking to their class, and 
I saw a great teacher. And they learned the preamble to the 
Constitution, and the challenge was three students stood up and 
said it in less than 7 seconds. It can be done.
    And I could see where education in that classroom was fun. 
Students were having fun. It shouldn't be drudgery. You can't 
go through years and years of training and have it as drudgery.
    And I want to debunk some myths now. I know how terrible 
you are, how awful a job you are doing in America, because I 
watch the evening news like everybody else. The problem is that 
is not the truth, and I wish Mrs. Davis was still here because 
I do want to talk about Finland and I want to talk about how 
Finland has 5.4 million people and a 4 percent poverty rate.
    I read a book recently and I challenge everybody in this 
room to read this book--M. Night Shyamalan, ``I Got Schooled.'' 
You need to read the book because it says this--and he went out 
and looked at data, like you all are doing--what are we 
actually accomplishing?
    And he found out to close the achievement gap if you took 
schools in this country that had 10 percent or less poverty--
and poverty is defined as 75 percent and above free and reduced 
lunch--and remember, 20 to 22 percent of our schools in this 
country meet that definition--we have the highest PISA scores 
in the world. No one is even close.
    So when you look at this country you have to look at it in 
terms of where poverty is and where the real--and it is 
really--we are not going to ever close the achievement gap 
unless we help improve poverty. So it is a self-fulfilling 
prophecy. That was eye-opening to me, that I didn't realize how 
well we were doing.
    And he went through four of five things that you all have 
talked all about, and I just want to bring them up, and I 
obviously can't go over the whole book now.
    But, Ms. Hall, you brought it out is how you get a good 
teacher, because if you don't have a good--it doesn't have to 
be Superman or Superwoman in the classroom, just a good 
teacher. If you do that, how do you make sure that a teacher 
who is not effective is not hired? And I think what you are 
doing is making sure they are prepared when they get back.
    And one of the chapters in his book is: Mr. Brodinsky, 
Report to the Office and Bring Your Suitcase. In other words, 
there are just some people that don't need to be teaching. So 
that was one thing.
    Second thing was a highly effective principal, where a 
principal spent 80 percent of their time in the classroom 
helping the teacher, not making sure that they are doing wrong, 
but improving what they are doing, being there. And I know when 
I was in school the only thing I saw Mr. Thompson do as a World 
War II Marine was to get us out of the hallways. He was very 
effective at that.
    And one of the most impressive things in this book to me 
was what he wrote about how much you lose--how much a low-
income student loses in the summer in their reading. They lose 
as much as 2.8 months, where my children and your children are 
going to get read to, they are going to the library, we go to 
vacation Bible school, whatever you do in the summer.
    During the school year when you guys have them they do just 
as well as any other student, so I think we need to be 
focusing--and one of my concerns, I think one of the reasons 
that the teachers are having such a tough time staying where 
they are is they feel like they are being bent into a pretzel 
with 400 things you have to send back here to Washington or 
whatever and check every box or I am somehow a bad teacher, and 
they are not bad teachers. I want our teachers out there to 
know in America that most of them are doing a great job; they 
are not doing a poor job.
    How does the Common Core affect teachers in retention, job 
satisfaction, and so forth?
    And I guess we are doing it in Tennessee so I will drop 
that one in your lap.
    Ms. Singer-Gabella. Are you? First, I also have to tell you 
that you have a tremendous teacher preparation institution in 
U.T., so we--we are very good colleagues.
    We are working hard to prepare our teachers, and in fact, 
the Common Core is very consistent in terms of the kinds of 
outcomes for students is very consistent with the kind of 
teaching and learning that we are preparing--trying to prepare 
our teachers to do. So obviously there are challenges. The 
Common Core is not written for English-learners and so there is 
tremendous scaffolding that is--that needs to be done, but I 
think it has provided a focus point for many preparation 
institutions around setting a high bar for learners and then 
thinking about, okay, how are we going to help prepare teachers 
to get students to those standards?
    Mr. Roe. Have our teachers bought into it in Tennessee 
where we are using Common Core--
    Ms. Singer-Gabella. My impression is yes, primarily they 
have. There are issues in implementation, and we will really 
know what is going on when the assessments hit and the rubber 
meets the road.
    Mr. Roe. Well, I see my time has expired. I really 
appreciate what you all are doing in education across this 
country. I think you have one of the most important jobs in the 
United States, and thank you for being here.
    Chairman Rokita. Gentleman's time has expired. I thank the 
gentleman.
    Mr. Scott is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman. Mr. Chairman, I am 
always intrigued with the idea that that people--that school 
boards need instruction from Washington to tell them that 
teachers ought to be certified in the subject matter that they 
are teaching, as if the school board is looking at a list--a 
group of qualified teachers and they look over them and pick 
somebody that is not qualified, when the reality is that you 
don't have anybody qualified applying for the salary that was 
offered.
    I guess my question is, has there been an analysis as to 
what salary we ought to be offering teachers in order to 
attract the skill set that we are looking for?
    Ms. Peske. There have been various analyses of teacher 
salaries. However, a number of the analyses show that money is 
not the only thing that matters. It is certainly important and 
it certainly becomes more important to folks after, say, 5 
years when they look around and see their other colleagues who 
graduated from college making much more money--
    Mr. Scott. Well, I mean, if we were hiring doctors we could 
put salaries out there at $50,000. We would find some doctors. 
I don't think anybody would want to go to one, but I mean, we 
could find some doctors.
    And there has to be--what are we competing with in terms of 
skill set? The people with the skill sets that we are looking 
for, what do they make somewhere else compared to teaching?
    Ms. Peske. I mean, I can't answer that in terms of--I could 
speculate but I wouldn't do that. But again, I would emphasize 
that while money is important, a crazy principal will drive you 
out faster than a low salary.
    Mr. Scott. Right. But I mean, we are talking--people are 
making choices all the way through the process. When they go to 
college, what do they major in? When they decide career 
choices, what choices do they make? And they look at salaries, 
and if there is a low salary you are not going to get the best 
and the brightest coming into teaching if the salaries are the 
worst on the lot.
    So my question is, we are competing for talent. You have 
got to pay for the talent that you are competing for. What are 
people with the skill set that we are looking for--what are 
they making compared to teaching?
    Ms. Singer-Gabella. First of all, I would agree that there 
are other factors besides salary, but my colleagues in 
Tennessee at the State Board of Education did an analysis to 
look at both starting salaries, which were not altogether 
necessarily too different, but then if you look 5 and 10 years 
out, looking at the differential in growth, so that someone, 
for example, who has a background in mathematics and a 
bachelor's degree 10 years out--and I would have to go and get 
you the precise figures, but the salaries were pushing toward 
$100,000, whereas for 10 years out for a teacher in our state 
the salary would be closer to $45,000.
    Mr. Scott. And what does this do to your ability to recruit 
the best and the brightest in mathematics?
    Ms. Singer-Gabella. I think it makes it very challenging. 
Mathematics and science, where obviously the options are 
greatest, are the areas in which we are having the hardest time 
recruiting and keeping good teachers.
    Ms. Hall. Pardon me. I was going to add, we are recruiting 
science teachers right now and we are recruiting elementary and 
reading teachers and English language arts teachers, and math 
is where we lose them. They apply to our program, they start an 
application, and then they go take jobs that offer $70,000 to 
$80,000 starting salaries.
    Mr. Scott. Well, how can we reasonably expect to keep--to 
recruit and retain the best and the brightest if we are paying 
salaries half as much?
    Ms. Gist. I don't think you are going to find anyone on 
this panel that would disagree with the importance of paying 
our great teachers much more than we do now. I think that is 
really important.
    I do think that--we have talked a little bit about career 
ladders, and giving our teachers additional leadership 
opportunities and opportunities to take their expertise and 
share it with their colleagues, and I think doing that in a way 
that allows them to increase their salaries is also a very 
positive thing to consider.
    But no disagreement about the need to make sure that our 
great teachers are better compensated.
    Mr. Scott. Mr. Chairman, that is the only point I wanted to 
make. You know, we can talk around about how you get highly 
qualified teachers and train them right and this that and the 
other, but if you are not paying them a competitive salary for 
the skill set that we are looking for, you are not going to get 
the best and the brightest and we are going to always have the 
problem.
    I yield back.
    Chairman Rokita. I thank the gentleman.
    Dr. Foxx is recognized for 5 minutes.
    Chairwoman Foxx. Thank you.
    Congressman Scott, I will tell you I worked in a university 
and community college. I think we have it backwards with 
salaries in this country. I think we should be paying the 
people at the elementary level what we pay college professors 
to begin with, because the college professors have the students 
that have already been filtered out. Seriously, I have said 
this all my life.
    There is one other thing which unfortunately is not very 
popular on your side of the aisle, and that is differential 
pay. We could get the people to come into math and science if 
we were willing to pay them what they are worth, but we have 
the unions and other groups of people who refuse to allow 
differential pay to be done.
    There really are answers to it. You all sort of moved 
around it, but it can be done. And you are right: It is a 
simple thing. But thanks for bringing it up, because I think it 
is a really important thing.
    You talked about this, and every panel we have had--this is 
our 13th panel--every panel we have had says we collect too 
much data at the federal level and we don't have information. 
And you all have confirmed that again. What I would like to 
know very quickly is do you ever get any feedback on all that 
data?
    You are shaking your heads no. Okay. No. Okay.
    So it is useless. We are just wasting a lot of people's 
time and money, and I wonder where it is all stored, which is 
also another expensive thing. So thank you for answering that.
    The next question I would like to ask is you have talked 
about teacher preparation programs and effectiveness. Tell us 
how you are measuring effectiveness in your programs and in 
what happens after the teachers go out.
    Dr. Gist?
    Ms. Gist. Yes, ma'am. I would be happy to start.
    We have recently adopted new standards, as I mentioned 
during my testimony, and the process that we are going through 
now is the development of our program approval process. And we 
are working closely with our partners in higher education as 
well as our partners in K-12 in the field to develop that 
program approval process.
    And it will include everything from the ways in which we 
are evaluating the quality through which our preparation 
programs are selecting excellent applicants and aspiring 
teachers, the way that they prepare them, meaning that we have 
certain expectations for them that include making sure that 
aspiring teachers have strong content, but also making sure 
that they have experiences in the field and making sure that 
when they are in the field with students that they are getting 
regular feedback on what is happening when they are with 
students, so they are not just there to experience it, but when 
they are there they are getting--someone is giving them--
observing them and giving them feedback on what is happening.
    And then we are also going to be looking at outcomes. So we 
are going to be looking at once an aspiring teacher leaves a 
preparation program, what is their level of success following 
that?
    And we are looking at it--looking at that in a number of 
different ways. It includes everything from the evaluation that 
that teacher gets in the classroom once they are there; it 
includes the quality of their placements; it includes a number 
of different elements that we have created, and that 
information will be available through the report card that we 
are developing so that it is completely transparent.
    Chairwoman Foxx. Dr. Singer-Gabella?
    Ms. Singer-Gabella. I want to point out also, I think that 
we need to think about this again as a continuum--as a 
trajectory, so that we are talking--most good programs have 
benchmarks throughout their preparation. They have screening 
points in which they are allowing candidates to move through 
based on their performance up to that point.
    I had mentioned that before our candidate graduates we are 
requiring them to pass the edTPA, which is a really nice, 
performance-based measure. It gives us a very nice snapshot of 
our candidates' ability to plan, to assess, to think 
systematically about data and to provide good feedback.
    Once our candidates are taking positions teaching, we 
really do take seriously the feedback that we get from 
employers and the extent to which they are staying in the 
field. So that feels like another important piece.
    We are interested, again, in looking at other measures--for 
example, student perception data. And then we are paying 
attention to persistence in the field.
    Chairwoman Foxx. Quickly. The time is almost up.
    Ms. Peske. Sure. First I would say, I don't think it is 
useless for us to report to you on Title II data. I think if we 
had few measures and they were comparable across states we 
would learn a great deal about what other states are doing, so 
I wouldn't want you to abandon that altogether.
    Chairwoman Foxx. Ms. Hall?
    Chairman Rokita. Quickly, please?
    Ms. Hall. Thank you.
    How do we measure for effectiveness? We absolutely look to 
how the school principal evaluates our folks, but we also have 
our own measures that we look at. As I said, it is across 3 
years. You have 3 years to build your practice to make sure it 
is--there is a consistency in the data that we are looking at. 
It includes eight to 10 clinical observations by one of our 
coaches that is observing clinical practice as an input, but a 
very important input.
    We look at professionalism. Are they a productive member of 
the community? Do they take locus of control? Do they take 
responsibility for what they are doing and not--or are they 
kid-blaming?
    And then last, we do use pre-and post-test data.
    Chairwoman Foxx. Thank you.
    Chairman Rokita. Thank the gentlelady.
    Recognize myself for 5 minutes.
    Picking up on where Dr. Foxx left off, I would like to give 
Dr. Peske a couple seconds to see if she would indicate what 
data elements she would keep.
    And you don't have to say now, but would you be willing to 
put that in the record or even write me a private letter?
    Ms. Peske. Certainly. I would be willing to put it in the 
record and/or write you a private letter.
    Chairman Rokita. Okay.
    And how about the other three of you? Would you be willing 
to say what elements you would like to keep?
    Now, of course you are--is that a yes?
    Let that record indicate all the witnesses have agreed to 
do such.
    Now, if you remember back to Brett Guthrie's questions, he 
said, well, it is kind of--what I just asked you to do is a 
little bit unfair if you don't know why you are being asked 
about all the data elements. You know, maybe you could provide 
better data if you know what was being done and why you were 
being asked for it.
    Have you had any correspondence, have you had any 
interaction with the Department of Education or anyone else as 
to why they are asking what they are asking?
    Dr. Gist?
    Ms. Gist. Well first of all, I think that the U.S. 
Department of Education has indicated an interest and a 
willingness to explore this and to figure out how we can do a 
better job. I don't think they have an interest in, the 
leadership doesn't have an interest in perpetuating these 
reporting structures.
    Chairman Rokita. What human would?
    Ms. Gist. But I will also say--
    Chairman Rokita. Right.
    Ms. Gist.--that Title II is not the only area where that 
happens. IDEA is another example of where there is a lot of 
data collected that isn't necessarily improving performance.
    Chairman Rokita. Have they gone down that road? What are we 
doing? What can you point to for trying to make this better?
    Ms. Gist. I mean, in the two examples that I have given I 
don't think it has been--I mean, I think that the status quo 
remains in those two examples.
    Chairman Rokita. Thank you.
    Anyone else want to chime in on that?
    Ms. Hall? It is okay if you don't.
    Ms. Hall. I think I would like to answer from a 
practitioner perspective of what we look at. The data points 
that we look at that we think are important are when a teacher 
leaves. So retention and attrition are very important, but even 
more important is when during the school year does it happen, 
because that is going to inform our savviest districts of which 
pipelines are the best for them to pull their folks from, and 
we think it is a very important indicator.
    Chairman Rokita. Anyone else?
    Ms. Singer-Gabella. Yes. I do think you want to ask the 
question about what data are comparable across states, and that 
is a really important point, and can we draw on that, and what 
are more appropriately gathered at the state level? These 
questions of how are certainly things that states, working with 
professional associations and institutions, can get into the 
weeds to really make sense of what is going on.
    Chairman Rokita. Thank you.
    Differential pay--I would like your comments on the record.
    Dr. Gist?
    We will go right down the line. Yes, no, maybe so.
    Ms. Gist. Yes, and the question is how and under what 
circumstances. Certainly we need to pay physics teachers and 
others much more in order to have them and to be able to have a 
pool to select from. And I also believe that when done 
appropriately that performance should play a role, as well.
    Chairman Rokita. What would be inappropriate? When done 
appropriately performance--
    Ms. Gist. I think making blanket decisions about--the tools 
need to be quality. It needs to be thoughtful and, you know--
    Chairman Rokita. Data-driven. Evidence--
    Ms. Gist. Quality and multiple measures, not just one set 
of data.
    Chairman Rokita. Someone has got to do a review, and that--
    Ms. Gist. Pardon?
    Chairman Rokita. Someone has to do a review. That review 
has to be common across employees, that kind of thing?
    Ms. Gist. Right. And quality. Consistent--
    Chairman Rokita. Quality.
    Ms. Gist. Right. So in other words, the tool that you are 
using needs to be looking for the right things and it needs to 
be implemented well.
    Chairman Rokita. Do you have an example?
    Ms. Gist. We have just launched into a major effort to put 
new evaluation systems into place and we worked very carefully 
to look at the research and develop observation guides for 
evaluators, principals, and others who are going into 
classrooms, and so their tool has to be good, but also they 
have to be trained really well and prepared to be able to use 
the tool effectively.
    Chairman Rokita. Dr. Singer?
    Ms. Singer-Gabella. I would agree that the how is really 
where we get into trouble, and we wouldn't want to underpay the 
folks who are working at the primary level on critical language 
development. So it is sort of figuring out, how do we balance--
    Chairman Rokita. Well, if they are bad--
    Ms. Singer-Gabella. Oh, yes, absolutely. I think no one 
disagrees that we want to make sure that people are accountable 
for strong performance.
    Chairman Rokita. Thank you.
    Ms. Peske. Yes, sir, we need differential pay for 
differential roles, for differential subjects, for teaching in 
various shortage areas, particularly our low-income and low-
performing schools.
    Chairman Rokita. Thank you.
    Ms. Hall?
    Ms. Hall. I wholeheartedly agree. The way we think of it at 
UTC is like the operating room. There are probably 10 to 12 to 
15 different jobs and levels of expertise that are all 
evaluated and paid differently in those operating rooms, and we 
think our schools should be the same.
    Chairman Rokita. Thank you all.
    I will yield back and now recognize Mr. Polis.
    Mr. Polis. Thank you.
    Before I get to my closing I want to address differential 
pay for a moment. There are many school districts across the 
country that have implemented generally increased pay for STEM 
professionals.
    We had a statewide program in Colorado for several years, 
increased pay--I believe it was $3,000 supplementary income for 
math and science teachers, hard-to-recruit areas. It was a very 
popular program. It had to be defunded in the Great Recession, 
as a lot of states had to cut their education expenditures.
    Certainly I would have interest, and if there are any of my 
colleagues across the aisle that would, in a federal pilot 
program to support teachers and supplement salaries in STEM 
fields, particularly in areas that it is hard to recruit 
teachers that serve impoverished kids. That could be a very 
high-leverage way to use our limited federal dollars to help 
ensure that particularly STEM's teachers are able to work and 
support their families in very challenging work environments. 
So I think that is an area where hopefully initiatives will 
continue to move forward at the local level.
    Again, the state level, we did have a program in Colorado, 
and I think had the resources been there we probably still 
would and it would be something to look into--to federally, as 
well.
    I want to thank our witnesses for their testimony and for 
sharing some really terrific expertise on how school districts, 
states, and the federal government and as well as teacher 
training institutions can work together to better prepare 
teachers so they can thrive in the classroom.
    I want to address the professional development piece. The 
teacher preparation piece, of course, absolutely critical and 
we are talking about actually looking at output-based 
indicators. We have had a similar issue with regard to 
professional development.
    The teacher entering the classroom after preparation is in 
no way, shape, or form as fully developed as they will be over 
time with professional development. Districts, the federal 
government, states all invest in professional development.
    How do we also see, or do you have any examples of how this 
revolution in data-and outcome-based measurements can also 
influence the effectiveness of teacher preparation programs to 
improve the quality of teachers in the classroom?
    Who would like to address that?'
    Dr. Gist?
    Ms. Gist. Sure. I think one of the exciting things that has 
happened in our roll-out of our new educator evaluation systems 
is the connection between that work and professional 
development.
    We have for too long in our profession had these blanket, 
you know, everybody go to a certain building and everyone gets 
the same professional development. It may or may not be 
something that you need and/or are interested in.
    And so, just like we differentiate instruction in our 
classrooms for our students, we need to make sure that our 
professional educators have access to professional development 
and opportunities to grow and learn in areas in which they want 
to grow and learn and have been identified as areas in which 
they need to grow.
    Mr. Polis. And I think for too long decisions have been 
made based on, you know, who has the slickest marketing, or 
what was trendy at the time. And if we can move to a more data-
based way of making sure districts make data-based decisions 
that can improve the quality of teaching.
    Dr. Peske, did you want to address--
    Ms. Peske. Yes, quickly. We also need to rely on our 
effective educators. So now that we have these educator 
evaluation systems in place with strong data we need to 
identify those educators who are exemplary with data and we 
need to learn from them. So rather than bring in all these 
vendors to give us professional development, we need to turn to 
the teachers who are doing this the best.
    Mr. Polis. I look forward to soon introducing the Great 
Teachers Leading for Great Schools Act, which will revamp Title 
II of the Elementary and Secondary Education Act to focus on 
intensive job-embedded professional development with 
transparency and outcome-based indicators.
    Really, learning starts with our preparation systems--both 
initial preparation as well as professional development. 
Teachers need pre-service opportunities to explore new 
strategies, the opportunities to work together sharing teaching 
strategies, engaging in meaningful and continuous professional 
work and development as they proceed through their careers.
    Innovation is occurring, as we heard from examples like the 
Urban Teacher Center and states like Massachusetts and Rhode 
Island, which are putting in place policies that ensure that 
teachers, districts, and the public have information about how 
to improve schools. We need to give social entrepreneurs and 
innovators the ability to innovate in this important field and 
ensure that our traditional programs are held accountable and 
focus on outputs that actually improve the quality of education 
that our next generation of students receive.
    I look forward to working with my colleagues to advance 
policies that invest in our nation's educators to build a 
strong teacher preparation system. I think this hearing is a 
very good first start and look forward to working on 
legislation regarding some of the ideas that our experts 
presented in testimony today.
    And I yield back the balance of my time.
    Chairman Rokita. I thank the gentleman.
    And for the record, I would like to say that I would be 
interested in learning more of the gentleman's policies and 
language with the idea of partnering with him on different 
subjects. I appreciate the offer.
    I would like to thank the witnesses again for coming. It 
was very enlightening. I learned a lot. There is a method to my 
madness about offering to go last--my questioning, and that is 
I could listen more and I appreciate that.
    In the request I made of you during my 5 minutes of 
questioning that you are going to respond to, the specific 
request was to list those data elements that you thought were 
good to keep in--effective to keep in, but there is a 
corollary, perhaps, to that, and that is list for me elements 
that aren't being collected that ought to be, in your opinion. 
That is just as valuable.
    And again, Mr. Guthrie has brought that up in his 
questioning but I am not sure for the record that we got really 
precise answers or recommendations from you. And I only task 
you with this because I think, frankly, your opinion is going 
to be--is going to weigh heavily for a lot of us, so I would 
encourage you to, in fact, respond.
    With that, again, I would like to thank the witnesses for 
the testimony as we continue to work through reauthorizations 
of the Higher Education Act and of the Student Success Act.
    And finding no further business before the committees, 
these subcommittees stand adjourned.
    [Additional Submissions by Mr. Davis follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Additional Submissions by Mr. Hinojosa follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    [Questions submitted for the record and their responses 
follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    [Whereupon, at 11:55 a.m., the subcommittees were 
adjourned.]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
